<html>
<title> - THE RETURN AND RESETTLEMENT OF DISPLACED IRAQIS</title>
<body><pre>[Senate Hearing 111-83]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-83

            THE RETURN AND RESETTLEMENT OF DISPLACED IRAQIS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations



<GRAPHIC NOT AVAILABLE IN TIFF FORMAT>




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate





                  U.S. GOVERNMENT PRINTING OFFICE
51-951 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

CHRISTOPHER J. DODD, Connecticut     JAMES E. RISCH, Idaho
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
EDWARD E. KAUFMAN, Delaware

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Al-Tikriti, Nabil, assistant professor of history, University of 
  Mary Washington, Fredericksburg, VA............................    23
    Prepared statement...........................................    25
Aossey, Nancy A., president and CEO, International Medical Corps, 
  Los Angeles, CA................................................    10
    Prepared statement...........................................    12
Casey, Hon. Robert P., U.S. Senator from Pennsylvania, opening 
  statement......................................................     1
    Prepared statement...........................................     1
Laipson, Ellen, president and CEO, The Henry L. Stimson Center, 
  Washington, DC.................................................     4
    Prepared statement...........................................     6

              Additional Material Submitted for the Record

Joint prepared statement of Kenneth H. Bacon, president, and 
  Kristele Younes, senior advocate, Refugees International, 
  Washington, DC.................................................    46

                                 (iii)

  

 
            THE RETURN AND RESETTLEMENT OF DISPLACED IRAQIS

                              ----------                              


                        TUESDAY, MARCH 31, 2009

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert Casey 
(chairman of the subcommittee) presiding.
    Present: Senators Casey, Kaufman, and Risch.

 OPENING STATEMENT OF HON. ROBERT P. CASEY, JR., U.S. SENATOR 
                       FROM PENNSYLVANIA

    Senator Casey. The hearing of the Foreign Relations 
Subcommittee on Near Eastern and South Asian and Central Asian 
Affairs will now come to order.
    Today, the subcommittee meets to examine the crisis 
concerning Iraqi refugees and internally displaced persons, 
known often, maybe only here in Washington, by the acronym 
IDPs, one of the most tragic humanitarian consequences of 
America's war in Iraq. The purpose of this hearing is to 
determine the efforts being taken by the Iraqi Government, the 
United States, and the rest of the international community to 
facilitate the resettlement of Iraqis displaced internally, and 
the repatriation of Iraqi refugees living in neighboring 
countries.
    I will, for purposes of moving things along, just summarize 
the rest of my testimony. I'll have the entire statement be 
made part of the record.
    [The prepared statement of Senator Casey follows:]

  Prepared Statement of Hon. Robert P. Casey, Jr., U.S. Senator From 
                              Pennsylvania

    Today, the Senate Foreign Relations Subcommittee on Near Eastern 
and South and Central Asian Affairs meets to examine the crisis 
concerning Iraqi refugees and internally displaced persons (IDPs), one 
of the tragic humanitarian consequences of America's war in Iraq. The 
purpose of this hearing is to determine the efforts being taken by the 
Iraqi Government, the United States, and the rest of the international 
community to facilitate the resettlement of Iraqis displaced 
internally, and the repatriation of Iraqi refugees living in 
neighboring countries. The presence of such a large population in a 
state of displacement not only has humanitarian consequences, but poses 
security risks to future Iraqi stability and the interests of 
neighboring states and the international community. Accordingly, as the 
United States begins to drawdown its military presence in Iraq, we have 
a both a moral and a security interest in ensuring the safety and 
welfare of Iraqi refugees and IDPs.
    The United Nations High Commissioner for Refugees (UNHCR) estimates 
that 4.7 million Iraqis have been forced to leave their homes. 
Approximately 2.7 million are displaced internally, while 2 million 
have fled to neighboring states, particularly Syria, Jordan, and 
Lebanon. Indeed, these numbers have been called into dispute, and I 
invite the views of our witnesses today on whether they are too high or 
too low. The Iraqi Government has demonstrated an inability to deal 
with a problem of such magnitude. Declining oil revenues and 
institutional deficiencies are preventing the government from 
effectively addressing this issue. In spite of improved security 
conditions, displaced Iraqis who return home are confronted with 
deplorable living conditions, or worse, destroyed homes. I am also 
concerned that ongoing sectarian divisions could be preventing the 
government from mustering the political will necessary to deal with the 
refugee crisis. We should assess whether the government's Shiite 
majority has an agenda to keep large numbers of Sunni refugees from 
returning to Iraq, and we also need to understand what is prompting 
thousands of Iraqi Christians to flee to Syria.
    The exodus of refugees out of Iraq is overwhelming Iraq's 
neighbors, which I witnessed firsthand during my trip to Jordan in 
2007. Counties like Jordan and Syria cannot handle the constant flow of 
refugees from Iraq, and some have started to impose legal and visa 
restrictions on new arrivals. These countries are not signatories to 
the 1951 Refugee Convention and have denied Iraqi refugees within their 
borders the protections and basic human rights refugees claim in most 
countries. As Refugees International reported last month, these Iraqis 
cannot find gainful employment in their host countries, and they are 
quickly running out of resources to sustain themselves. Unfortunately, 
the return of refugees to Iraq, however desirable, continues to be 
problematic, due to a difficult security environment and inadequate 
living conditions awaiting them at home.
    I was pleased to hear that the Obama administration announced FY 
2009 contributions of more than $141 million to help displaced Iraqis. 
However, the crisis does not appear to be improving. It is my 
understanding that the administration is engaged in an ongoing review 
of policy toward the refugee challenge. President Obama has announced 
that, by August 2010, the majority of U.S. troops will be withdrawn 
from Iraq. While I fully support the President's plan to withdraw our 
forces from Iraq, I believe we must sustain our commitment to the 
refugee and IDP situation affecting nearly 5 million of its citizens, 
especially when the problem cannot be effectively controlled by the 
Iraqi Government and places undue strain on its neighbors. We cannot 
ignore the consequences for regional stability and Iraq's internal 
order if a large population of dispossessed and displaced individuals 
remains in place. Without any opportunity for reintegration or an 
escape from poverty and despair, displaced populations may be 
susceptible to recruitment by extremist groups, threatening the 
viability of the Iraqi state.
    In September 2008, my distinguished colleague, Senator Ben Cardin, 
and I filed legislation--titled ``The Support for Vulnerable and 
Displaced Iraqis Act of 2008''--to mandate the development of a 
comprehensive U.S. strategy to address the mass displacement of Iraqis. 
This bill addressed several issues that are still pertinent today. And 
as several of my colleagues and I emphasized to then-President-elect 
Obama in a letter we wrote in December 2008, these issues should be a 
focus of his administration's overall approach to Iraq.
    First, a U.S. strategy on Iraqi refugees should address the 
responsibility of the Iraqi Government to help meet the urgent needs of 
its displaced citizens, including an assessment of how much assistance 
is needed to help meet these needs. Second, it should assess what 
conditions are necessary for the voluntary, safe, and sustainable 
return of displaced Iraqis. Finally, it should outline steps the U.S. 
Government will take to engage the international community to implement 
the strategy. It is imperative that the United States work in concert 
with Iraq's neighbors, donor governments, and other international 
actors to address challenges facing Iraqi refugees and IDPs, such as:

  <bullet> The lack of legal status for refugees;
  <bullet> The inability of refugees to work legally;
  <bullet> Limited access to health care and education;
  <bullet> Critical food shortages;
  <bullet> Inadequate shelter, drinking water, sanitation, and 
        protection.

    Moreover, in the context of renewing U.S. engagement with Syria, 
the administration could find an important avenue for cooperation by 
working with Damascus on the refugee crisis.
    The U.S. Government can also bolster its efforts to resettle in the 
United States those Iraqi refugees who risked their lives to assist the 
U.S. mission. Resettlement is the right thing to do, and it would also 
ease the burden on Iraq's neighbors. Only in 2007 did the previous 
administration significantly increase the number of Iraq refugees to be 
settled in the United States. And even though the United States 
exceeded its FY 2008 admissions target of 12,000 Iraqi refugees, the 
demand for resettlement outpaces the steps the U.S. Government is 
taking. Any comprehensive U.S. strategy on Iraqi refugees should 
examine our current resettlement plan, and draw on all relevant 
government agencies to support this process.
    We are joined here today by an esteemed panel of experts, who will 
discuss the myriad challenges involved in the Iraqi refugee crisis. Our 
first witness is Ellen Laipson, president and CEO of The Henry L. 
Stimson Center since 2002. Ms. Laipson is one of Washington's 
preeminent authorities on the Middle East, having written extensively 
about the challenges the United States faces in Iraq. Prior to joining 
the Stimson Center, Ms. Laipson served nearly 25 years in the United 
States Government, many of which were devoted to analysis and 
policymaking on Middle Eastern issues. She was the vice chair of the 
National Intelligence Council from 1997-2002, and held senior posts at 
the U.S. Mission to the United Nations and in the National Security 
Council. I look forward to her analysis of the refugee crisis, how it 
relates to regional stability, and how the United States should 
approach this problem.
    Nancy Aossey is president and CEO of the International Medical 
Corps. After becoming CEO shortly after IMC's founding in the mid-
1980s, Ms. Aossey helped to transform International Medical Corps into 
one of the world's largest humanitarian organizations, providing more 
than $120 million in disaster response and recovery programs annually. 
Thanks to Ms. Aossey's leadership, International Medical Corps assists 
the internally displaced throughout Iraq, providing badly needed 
medical care to those in need. She has also served as chairman of the 
board of InterAction and now serves on its executive committee.
    Our final witness is Dr. Nabil Al-Tikriti of the University of Mary 
Washington in Fredericksburg, VA. Dr. Al-Tikriti has written 
extensively on the effects of population displacement in Iraq and its 
neighbors, and its policy implications for the region. In addition to 
his scholarship, Al-Tikriti volunteered with the Catholic Relief 
Services humanitarian assistance project in Iraq in 1991-1992, and 
later served with Doctors without Borders as a relief worker in 
Somalia, Iran, Albania, Turkey, and Jordan.
    Before we turn to our witnesses, I would like to enter into the 
formal hearing record a statement submitted to the committee by Mr. 
Kenneth Bacon, president of Refugees International, and Kristele 
Younes, senior advocate for Refugees International.
    I encourage all of our witnesses to keep their remarks brief and 
succinct so that we can move to questions; accordingly, please limit 
your oral statement to no more than 10 minutes. If that requires you to 
summarize your statement, the text of your full statement will be 
included in the hearing record.

    Senator Casey. I know we had some delay here because we 
just had three budget votes, and that delayed our start.
    But, suffice it to say that this is an issue that has not 
received near enough attention here in Washington. It presents, 
I believe, to the American people and to the world, both a 
moral challenge as well as one that is related to security. I 
believe that this isn't just about Iraqi refugees, it's about 
how our country's policy will be carried out in Iraq and 
whether or not we create a secure environment there.
    The United Nations High Commissioner for Refugees estimates 
that 4.7 million Iraqis have been forced to leave their homes; 
approximately 2.7 are displaced internally, while 2 million 
have fled to neighboring states, particularly Syria, Jordan, 
and Lebanon. Indeed, these numbers have been called into 
dispute, and I'd invite our witnesses, who have labored in this 
vineyard, so to speak, a long time, to correct me if I'm wrong 
about those numbers, but they're the numbers that we are 
working with.
    So, with that, I will move forward with our witnesses. I 
wanted to briefly introduce them now. We have a distinguished 
panel of experts who are testifying today. They'll discuss the 
many challenges involved in this issue, really a crisis.
    Our first witness is Ellen Laipson, president and CEO of 
The Henry L. Stimson Center since 2002. Ms. Laipson is one of 
Washington's preeminent authorities on the Middle East, having 
written extensively about the challenges the United States 
faces in Iraq.
    Our second witness is Nancy Aossey, president and CEO of 
the International Medical Corps. After becoming CEO, shortly 
after IMC's founding in the mid-1980s, Ms. Aossey helped to 
transform the International Medical Corps into one of the 
world's largest humanitarian organizations.
    And finally, we're joined today by Dr. Nabil Al-Tikriti, of 
the University of Mary Washington, in Fredericksburg, VA. He 
has written extensively on the effects of population 
displacement in Iraq and its neighbors, and its policy 
implications for the region.
    And we know that each of these witnesses brings both a 
passion about, but also experience in and scholarship in, the 
issues we're going to discuss today.
    Our ranking member, Senator Risch, will be joining us 
later. When he is here, I'll yield to him for any comments. And 
I know that Senator Kaufman is here. If he wanted to make some 
opening comments, I'd invite him to do that.
    Senator Kaufman. Thank you, Mr. Chairman. No, I think we've 
waited long enough. But, I want to, again, repeat what you said 
about this talented group that have come to testify, and I'm 
looking forward to your testimony. Especially recognize Ms. 
Laipson, who used to work with me in Senator Biden's office, 
and I know how well qualified she is. So, I just would like not 
to hold off, and get on with their testimony, which I'm ready 
to listen to. I'm going to have to leave to go preside at 4 
o'clock, so don't take it personally.
    Senator Casey. Why don't we go from my right to left.
    And, Ms. Laipson, you may start. Thank you.

   STATEMENT OF ELLEN LAIPSON, PRESIDENT AND CHIEF EXECUTIVE 
      OFFICER, THE HENRY L. STIMSON CENTER, WASHINGTON, DC

    Ms. Laipson. Thank you, Senator, for giving me the 
opportunity to address your subcommittee on the issue of Iraqi 
refugees.
    The plight of more than a million Iraqi refugees has 
significant consequences for the Middle East region, as well as 
for the future stability and identity of the Iraqi state. How 
the refugees are treated will also be seen, over time, as a 
test of U.S. leadership and a measure of U.S. ability to manage 
the consequences of the decision to oust Saddam Hussein.
    I approach this issue, not as a refugee expert, per se, or 
as someone involved directly in humanitarian programs, but I 
look at it from a political perspective as it relates to the 
future of Iraq, the stability of the neighboring countries, and 
the larger challenge of regional security.
    Seen from this broader perspective, the potential 
implications of the refugee crisis are profound. At one 
extreme, it's worth considering whether the Iraqi refugees will 
someday be seen as the new Palestinians, a large population 
movement caused by political upheaval and war who have the 
potential to change the politics of the region for generations, 
reshaping the demographic and political balances in key 
countries of the region.
    But, even if that scenario does not play out, the drama of 
the flow of Iraqis fleeing their homes has huge consequences 
for Iraq itself, the tragic loss of cultural diversity, the 
tradition of coexistence in urban neighborhoods and rural 
villages, the brain drain of well-trained professionals, and 
the uncertainties of political loyalties and national 
identities that are provoked by this abrupt shift in the 
demographic makeup of the country.
    Today, I'd like to share some thoughts on how to think 
about refugees, in general, some of the definitional problems, 
and then briefly look at some of the key countries that have 
been receiving countries. How has this affected their politics? 
What are the prospects for return or repatriation, as you 
mentioned? And the long-term implications for the United 
States, and what we should--how we should think about our own 
options.
    So, let's begin with just a couple of definitional 
problems. As you mentioned, we really don't know for certain 
how many Iraqis left the country during different phases of the 
crisis. It's often cited that as many as 20 percent of the 
total Iraqi population has moved since 2003, either within 
Iraq's borders or across international borders. A new USIP 
study also reminds us that we are still--that Iraq is still 
dealing with some of the people who were displaced during the 
Saddam Hussein period, so some of the movement back to villages 
and towns in Iraq are people that may have been displaced even 
prior to 2003.
    But, since the American intervention, Iraqis left the 
country in two waves; initially in the 2003 to 2005 period, but 
a much larger wave left in response to the outbreak of 
sectarian fighting that began in February 2006. So, really it's 
from 2006 to the present that the largest proportion of the 
crisis, as we know it, occurred.
    The situation is tapering off now, there are fewer Iraqis 
trying to leave now. And so, we can focus on whether this 
population currently outside of Iraq may eventually find the 
conditions favorable to return.
    Refugee experts tell us that there's sometimes not an easy 
distinction to be made between who is a refugee and who is an 
economic migrant. We know that a lot of the Iraqis left with 
their savings, in search of professional opportunities in 
neighboring countries, but, over time, their status has 
changed; as they've run out of their funding, they now find 
themselves needing to register with the U.N. as refugees so 
that their children can go to school and that they are entitled 
to some of the food programs and other socioeconomic support 
systems.
    It's also important to note that we tend to look at 
refugees as a collective, as a group, with shared requirements, 
but we should remember that refugees are individuals and 
families, each with deeply personal and unique stories and 
perspectives. Resolving the refugee crisis must take into 
account that people will respond differently to the trauma of 
fleeing their country, and not all will embrace the solutions 
that international organizations may offer them. So, we want to 
be flexible when we think about refugee programs that are 
available to them.
    Let me turn now to the prospects for return. It does seem 
to me that the refugees themselves are demonstrating to us that 
they don't believe that conditions in Iraq today are favorable 
for return. So far, we've seen perhaps a few tens of thousands 
returning, and many of them are finding that these financial 
subsidies that the Iraqi Government offers are not sufficient 
to really resume the life that they had known before. Some of 
the Iraqis that are trying to return are finding that their 
socioeconomic status has been reduced from what they once 
enjoyed; but, it still may be better than being unemployed in 
Syria or Jordan, so some of them will make that choice.
    But, it's important to note that, first and foremost, 
perception of security conditions will be the primary factor 
that determines whether Iraqis return. Second will be 
economics, whether they think they will find employment, and 
whether they can resume normal life back in Iraq. And the 
services that the Iraqi Government provides are perhaps the 
least single important factor in determining the decision to 
take the advantage of opportunities to return to Iraq.
    Seems to me that the United States has a deep and abiding 
interest in both the stability of Iraq and its ability to 
resume its place in the region. The presence of Iraqis, with 
deteriorating economic conditions in Syria and Jordan in 
particular, is a painful reminder of Iraq's weakness and an 
increasing burden on those hosts. As Iraq's neighbors adjust to 
new realities and we attempt to reintegrate Iraq in the region, 
the refugee issue has the potential to be a source of 
cooperation and common concern, but also a source of enduring 
friction. We should not think that the return of the refugees, 
in and of itself, will determine Iraq's relations with its 
neighbors, but it will contribute to how Iraq's neighbors 
perceive the integrity of the Iraqi Government and how the two 
societies relate to each other. Some Iraqis will, of course, 
become loyal citizens of other countries, but many will always 
yearn to return.
    The international community needs to have a range of 
programs for the Iraqi displaced--first and foremost, to work 
on conditions inside Iraq that will make return a viable and 
attractive option; to provide support to the host countries to 
manage the infrastructure challenges of absorbing, even 
temporarily, large numbers of Iraqis; and to encourage Iraqis 
to find long-term solutions, either through integration where 
they're currently residing, or resettlement to third countries, 
including the United States.
    In the end, these are profoundly personal choices. Refugee 
policies for the United States that are generous in spirit and 
flexible in practice will offer the most solace to a population 
that fled the country during war and conflict that can still 
return to play an important role in Iraq's future, if they 
choose, or to find a new life elsewhere.
    Thank you.
    [The prepared statement of Ms. Laipson follows:]

 Prepared Statement of Ellen Laipson, President and CEO, The Henry L. 
                     Stimson Center, Washington, DC

    Thank you for giving me the opportunity to address your 
subcommittee on the issue of Iraqi refugees. The plight of the more 
than a million Iraqi refugees has significant consequences for the 
Middle East region, as well as for the future stability and identity of 
the Iraqi state. How the refugees are treated is also seen as a test of 
U.S. leadership, and a measure of U.S. ability to manage the 
consequences of the decision to oust Saddam Hussein.
    I approach this issue not as a refugee expert per se, nor as 
someone directly involved in the many laudable humanitarian programs 
that support refugee needs. I look at the refugee issue from a broad 
political perspective, as it relates to the future of Iraq, the 
stability of the neighboring countries that have received large numbers 
of Iraqi migrants, and the larger challenge of regional security.
    Seen from this broader perspective, the potential implications of 
the refugee issue are profound. At one extreme, it is worth pondering 
whether the Iraqi refugees will come to be seen as the next 
Palestinians: A large population movement caused by political upheaval 
and war that has the potential to change the politics of the region for 
generations, reshaping the demographic and political balances in some 
of the key countries of the region, including Syria and Jordan. Even if 
that scenario does not play out, the drama of the spontaneous flow of 
Iraqis away from their homes has huge consequences for Iraq itself; the 
tragic loss of cultural diversity and coexistence in many urban 
neighborhoods and remote villages, the brain drain of well-trained 
professionals, and the uncertainties for political loyalties and 
national identity that are provoked by this abrupt shift in the 
demographic makeup of the country.
    My comments today will offer some reflections on how to think about 
the Iraqi refugee problem, and about refugees and other forms of 
migration. I will then address three key questions:
    1. What are the current conditions and policy concerns regarding 
Iraqi refugees in Syria, Jordan, and other Middle Eastern states?
    2. What are the prospects for large-scale return of Iraqi refugees?
    3. What are the implications of the Iraqi refugee crisis for Iraq, 
its reintegration in the region and regional stability?
                 how to think about the refugee crisis
    There are a number of definitional issues that should be 
recognized: The unplanned movement of people from crisis zones does not 
always mean they can be easily categorized for purposes of the 
international community's responses, nor are numbers often reliable or 
based on deeply scientific methods. In the case of Iraq, we do not know 
for certain how many Iraqis left the country during different phases of 
the crisis; it is often cited that as much as 20 percent of Iraq's 
population has moved since 2003, half within the country and half 
across its international borders. A new U.S. Institute of Peace report 
\1\ on Iraq's displaced reminds us that there was mass displacement of 
Iraqis during the rule of the Baath Party and Saddam Hussein. Some of 
those Iraqis are now moving within Iraq back to their place or origin, 
while others have been returning from international places of temporary 
residence or asylum. This will add another dimension of complexity with 
respect to eligibility for various kinds of support for return, 
including housing and employment support once back inside Iraq.
---------------------------------------------------------------------------
    \1\ U.S. Institute of Peace, Deborah Isser and Peter Van der 
Anweraert, ``Land, Property and the Challenge of Return for Iraq's 
Displaced,'' USIP Special Report No. 221, April 2009.
---------------------------------------------------------------------------
    Since 2003, Iraqis left the country in two waves: One in the early 
period of chaos and uncertainty, and a much larger wave provoked by the 
outbreak of sectarian fighting in February 2006. The flow of Iraqis 
across the borders to neighboring Syria and Jordan in particular was 
largest in 2006 and began to taper off in 2007, when conditions began 
to improve gradually inside Iraq, and receiving countries developed 
more formal policies for those seeking to come for safety and work. The 
number of Iraqis who have left since 2003 is not known; officially the 
commonly used arithmetic is 1.2 million Iraqis in Syria, 500,000 in 
Jordan, 200,000 in the gulf countries, and some tens of thousands in 
Egypt and Lebanon. But NGOs and experts on the ground considered those 
figures to be swollen by as much as 30-40 percent.
    Migration experts, such as those at the American University of 
Cairo's Center for Migration and Refugee Studies, point out that there 
is sometimes not a clear distinction between an economic migrant and a 
refugee. A person or family can choose to leave their home when 
conflict or chronic instability makes it hard to earn a living. They 
leave in search of a more normal life, both in terms of livelihood and 
safety. The receiving country may consider the person an economic 
migrant; the decision to self-declare as a refugee is also not a simple 
proposition for a middle-class person who hopes to quickly acquire a 
home and a job, not to live as a ward of local charities or the 
international community.
    One's status can also change over time. In the case of the Iraqis 
in Syria, for example, many came as ``guests'' of the Syrians, and were 
able to finance their temporary residence in Syria's cities. But over 
time, absent promising conditions in Iraq to lure them back, these same 
families deplete their savings, find no employment in the local 
economy, and reluctantly find themselves applying for services and 
subsidies that oblige them to register as refugees. The U.N. High 
Commissioner on Refugees is now encouraging Iraqis to register, in 
order to facilitate access to basic human needs programs, including 
financial support for food, housing, health, and education.
    It is also important to note that to address the needs of a refugee 
population, it is often necessary to treat them as a collective, as a 
group with shared requirements. But refugees are individuals and 
families, each with deeply personal and unique stories and 
perspectives. Resolving the refugee crisis must take into account that 
people will respond differently to the traumatic experience of fleeing 
their country, and will not all embrace the services provided by relief 
organizations or the incentives offered by Iraq or receiving countries 
for those migrants to return. The long-term solution, therefore, will 
require a range of options for the refugees, not a policy based on an 
assumption that they are a cohesive or like-minded cohort.\2\
---------------------------------------------------------------------------
    \2\ For a useful discussion of different and simultaneous options 
for Iraqi refugees, see The International Rescue Committee, ``Five 
Years Later, A Hidden Crisis,'' Report of the IRC Commission on Iraqi 
Refugees, March 2008.
---------------------------------------------------------------------------
                    current conditions and concerns
    The environment in which Iraqi refugees find themselves in early 
2009 in the neighboring Arab states is affected by a range of factors: 
The global economic downturn and its local impact, the history and 
legacy of Iraq's relations with each host country, and the host 
government's views of the changing situation in Iraq and prospects for 
return. It is also affected by the behavior of the Iraqis themselves. 
It is important to note that no major Arab country has created 
``refugee camps'' for the Iraqis. Some Arab cities, however, now have 
neighborhoods where Iraqis cluster, with restaurants and customs that 
have an Iraqi character, In other cases, Iraqis choose to move together 
to small rural enclaves and avoid the cities where they may be subject 
to discrimination or run afoul of security authorities.
    Some of the early concerns about Iraqis bringing sectarian politics 
or violence with them appear to have abated. Local security services 
have attempted to screen out Iraqis with a clear political agenda, and 
for the most part, there are few instances of Iraqi refugees, migrants, 
and guests causing conflict or law and order problems in their 
countries of temporary residence. Local populations, however; perceive 
the Iraqis in a somewhat hostile way, considering them responsible for 
inflation, for high real estate prices, and even for water scarcity. 
This suggests that conflict or competition over resources will remain a 
concern for host countries.
    A quick snapshot of the situation in key Arab states may be useful 
\3\:
---------------------------------------------------------------------------
    \3\ I am grateful for a draft paper by Sara Sadek, ``Iraq 
`Temporary Guests' in Neighboring Countries: Challenges and Prospects 
of Integration,'' Center for Migration and Refugee Studies; American 
University in Cairo. Discussion paper prepared for a Stimson Center-
AUC-AUB workshop on migration held in Beirut, March 16-17, 2009.
---------------------------------------------------------------------------
Syria
    Overall, Syria is viewed by the aid community and political 
analysts to have been the most generous and accommodating of the 
regional states toward Iraqi refugees. The government in Damascus 
considers the Iraqis to be ``guests'' and does not formally take a 
position on repatriation. Syria received a larger share of Christian 
refugees than other neighbors, and it is widely assumed that the 
Christians, many from small villages in northern Iraq, are not likely 
to return, even if security conditions improve in Iraq. The Christian 
Iraqis receive support and services from various local and 
international Christian nongovernmental organizations, and are somewhat 
integrated at the social level.
    Economic conditions for Iraqis in Syria, however, are dire. Many 
have depleted their savings or proceeds from selling homes and 
businesses in Iraq, and are not able to seek formal employment in the 
Syrian labor market, where unemployment is already high. The strain on 
resources is considerable, and the international NGO community finds 
itself serving both the Iraqi refugee population and Syrians who are 
also in need of food, education, and housing support.
    The Syrian Government remains relatively confident that the refugee 
problem is manageable. Syrian officials would like more financial 
support from Iraq, which Damascus complains has not lived up to its 
promises to help finance the basic needs of Iraqis in Syria, and from 
the international community, but they seem to take a long-term view. 
The leadership realizes, nonetheless, that unemployed and undereducated 
refugees in Syrian cities could, over time, become a virtual ``bomb'' 
for Syria, and for Iraq, should they return.\4\
---------------------------------------------------------------------------
    \4\ See U.S. Institute of Peace-Stimson Center joint report ``Iraq, 
Its Neighbors and the Obama Administration: Syrian and Saudi 
Perspectives,'' a working paper on a study mission in January 2009, p. 
8.
---------------------------------------------------------------------------
Jordan
    Jordan has been more nervous about the presence of Iraqi refugees, 
has more stringent policies for screening who is eligible to enter, and 
has felt a more direct impact of the influx on its relatively smaller 
population and infrastructure.
    Jordan provides Iraqis with asylum-seeking status, rather than 
refugee status granted by the U.N. High Commissioner on Refugees 
(UNHCR) as it provided in most other countries, once the refugees 
register. They are given a 6-month visa with no authorization to work, 
although affluent Iraqis who can deposit $150,000 in Jordanian banks 
have been given longer residence permits.
    Jordan is also worried about the long-term impact of sectarian 
consciousness of a Shia refugee population in a Sunni majority country. 
Jordan sees the refugee crisis from the perspective of its own history, 
hosting Palestinians who now form about half of the Jordanian 
population, and its once-close relationship with Baghdad.
Egypt \5\
    The relatively small cohort of Iraqis in Egypt does not generate 
much attention or concern from the Egyptian Government, which also 
houses large refugee populations from Sudan, Somalia, and other African 
conflict zones. Many Iraqis in Egypt have legal residence, either 
through their economic investments or through registering with UNHCR to 
allow their children into the public school system.
---------------------------------------------------------------------------
    \5\ See, for example, their study ``Iraqis in Egypt: A Statistical 
Survey in 2008,'' at http://www.aucegypt.edu/ResearchatAUC/rc/cmrs/
Documents/Iraqis%20in%20Egypt%20Provisional%20 Copy.pdf
---------------------------------------------------------------------------
    In contrast to the large African populations in Cairo, Iraqis are 
perceived as wealthy migrants, based in part on the collective memory 
of Egyptian laborers who worked in Iraq in the 1980s. There are some 
social frictions over property, and Iraqis complain that they have been 
blocked from forming their own civil associations, reportedly on 
security grounds.
Lebanon
    Iraqis in Lebanon face considerable obstacles to normalizing their 
status. They are granted refugee status by UNHCR, but this has not 
protected them from detention by Lebanese authorities. Many do not have 
residence permits and are required to pay fees to acquire them. They 
also have no access to public health and education services, or to the 
labor market.
    Unlike the situation in Syria, Jordan, and Egypt, Iraqis in Lebanon 
have formed community networks to survive, and Lebanon has permitted 
them to establish these services. Given the profound and seemingly 
permanent impact that Palestinian refugees have had on Lebanon, it 
appears unlikely that the government in Beirut will permit the Iraqis 
to fully integrate, and they may remain in rural enclaves, or migrate 
to other locales as circumstances permit.
                          prospects for return
    Repatriation of Iraqis who have not already integrated elsewhere or 
who may achieve resettlement status outside the Middle East is an 
important and compelling solution. It requires a number of conditions: 
Iraq has to be perceived as a relatively stable and secure environment, 
and refugees need some assurances about their prospects for returning 
to their homes and for finding employment. Much of the burden for 
meeting these conditions resides with the Iraqi Government and society, 
but the international community can also contribute to making this a 
viable option for many refugees.
    The perception of security conditions inside Iraq is likely to be 
the most important driver of a refugee's decision to return: All the 
services and subsidies will not suffice if the fundamental reason for 
flight has not been addressed. Iraqis in refugee status maintain 
contact with relatives and neighbors inside, as well as media accounts 
of conditions inside. They are interested in security at the national 
level, but also at the neighborhood level and at the family level. In 
2006, families fled because of direct threats from neighbors of a 
different sectarian identity. They will gauge for themselves whether 
those conditions have changed and how much risk they are willing to 
take. Do they have the option of living in a more homogeneous area 
where sectarian dangers are reduced? Refugee experts suggest that the 
refugees themselves will be good indicators of when the right 
conditions for return prevail: Iraqis have informal networks of 
information and even travel back into Iraq, to appraise the situation.
    Economics is also a powerful driver of the decision to return. 
Iraqi refugees were not able to calculate the duration of their refuge, 
and many would return at a lower socioeconomic status than they enjoyed 
before their departure. The readjustment to life in Iraq may be hard, 
but at some point, it may be better than remaining unemployed in a 
neighboring country. Resuming their earlier professional lives may not 
be feasible immediately, but can be an aspiration that motivates them 
to return.
    The Iraqi Government offers transportation and modest financial 
assistance to returnees. The estimate of returnees in early 2008 was 
less than 100,000, a very small reaction of those displaced since 2003. 
In general, these services and the sustained commitment to providing 
them are not robust enough to have generated large numbers to date, nor 
are the other conditions cited above strong enough.
                          long-term prognosis
    The United States has a deep and abiding interest in the stability 
of Iraq and its ability to resume its place as a key state in the 
region. The enduring presence of Iraqis with deteriorating economic 
conditions in neighboring states will be a painful reminder of Iraq's 
weakness and its internal strife, and an increasing burden on their 
hosts. As Iraq's neighbors adjust to new realities, and Iraq is 
integrated back into the region, the refugee issue has the potential to 
be a source of cooperation and common concern, but also an enduring 
source of friction. Disaffected Iraqis with few prospects of 
integration in host countries could be drawn to extremism or 
lawlessness, which will hurt Iraq and the host societies and impede 
prospects for regional security.
    The international community needs to have a range of programs and 
policies for the Iraqi displaced: First and foremost, to work on 
conditions inside Iraq that will make return a viable and attractive 
option; to provide support to host countries to manage the 
infrastructure challenges of absorbing, even temporarily, large numbers 
of Iraqis; and to encourage policies that permit Iraqis to find long-
term solutions, through integration when possible and resettlement to 
third countries, including the United States. In the end, these are 
profoundly personal choices. The United States needs to work 
strategically for stability in Iraq, recognizing that some of these 
societal traumas will take a very long time to heal. Refugee policies 
that are generous of spirit and flexible in practice will offer the 
most solace to a population that needs support now, and attention over 
time so that Iraqis who fled war and conflict in recent years can 
return to play a role in Iraq's future if they choose, or find a new 
life elsewhere.

    Senator Casey. Thank you very much.
    Ms. Aossey.

   STATEMENT OF NANCY AOSSEY, PRESIDENT AND CHIEF EXECUTIVE 
     OFFICER, INTERNATIONAL MEDICAL CORPS, LOS ANGELES, CA

    Ms. Aossey. I'd like to thank you, Chairman Casey, for 
calling this very important hearing today, and Senator Kaufman, 
for being here today, as well.
    I head the International Medical Corps. We're headquartered 
in Los Angeles, CA, and were founded in 1984. We are currently 
operating programs throughout the world in more than 25 
countries.
    We have been working in Iraq continuously, in almost all of 
Iraq, since 2003, promoting self-reliance and long-term 
development programs. Our 500 staff in Iraq work mostly outside 
the Green Zone, among the Iraqi people. We have 22 expatriate 
staff and about 40 technical experts. We also have about 200 
staff members and 13 expatriates in Jordan, Syria, and Lebanon. 
Our local staff are hired from the communities where we work. 
And, in fact, it is because of this that we have longevity in 
Iraq. It is the result of our staying true to the principle of 
acceptance of our presence by the people in the communities 
that we serve.
    International Medical Corps builds close ties to these 
communities where we work, and we work in consultation with 
local leaders and institutions to build this local support. The 
currency of our relationships, and the foundation of all of 
them, is trust.
    I'd like to focus on the conditions in which Iraq's 
displaced live, as well as the challenges ahead for this 
population. I will then present four recommendations for U.S. 
policy in Iraq that we think will help mitigate the current 
displacement crisis and assist in finding durable and long-
lasting solutions. Of course, I've submitted my written 
testimony, which is quite a bit longer.
    Until now, the plight of displaced Iraqis has really 
received mostly sporadic attention. If left alone, the 
displacement has the potential to undermine the nation's 
fragile and hard-won gains. How the displacement crisis is 
handled by all of us will have far-reaching consequences. 
Decisions regarding return, repatriation, and resettlement 
should not be made in haste.
    The plight of Iraq's internally displaced people is largely 
invisible. There are no sprawling tent camps or dramatic 
airdrops to capture international attention. Instead, the 
majority of them have found shelter quietly among the poorest 
of neighborhoods or sometimes amid strangers in overcrowded 
cities. Most are forced to rely on external support, with no 
means to make a living.
    The estimated 2 million Iraqis who fled to the neighboring 
countries do not fit the stereotype of refugees; they live in 
urban settings among the local population. They often cannot 
work. An ongoing assessment by International Medical Corps in 
all three countries finds that the majority of Iraqis refugees 
chronically lack access to health care and education, and that 
women and children, especially, experience declining health and 
social isolation. The reality is, in all three countries, 
Iraqis have fled insecurity, only to face severe poverty and 
deprivation.
    As a real, yet fragile, degree of security continues to 
settle over Iraq, some of the displaced families have begun to 
return home. Their numbers are small, just under 300,000, less 
than 6 percent of the total displaced population. And 9 of 10 
returnees are internally displaced persons. This means that the 
tremendous pressures on neighboring countries that host these 
refugees remains essentially unchanged.
    The international community really does owe a debt of 
gratitude to those nations of the Middle East that have taken 
in large numbers of these refugees and accept the economic, 
social, and political burdens that come with them. While the 
evidence of returns is encouraging, it's very important not to 
rush this process, because to push for accelerated returns 
before the proper conditions are in place could cause the 
exchange of existing problems for new, equally complex, and 
possibly much more dangerous set of challenges. We must also 
assure, of course, that other options are available to those 
who are not able to settle back into Iraq.
    But, return--and I repeat--return can only occur when Iraqi 
families feel it is safe to do so. And they rely on their 
information, in large part, not from government entities, but 
by talking to relatives and friends, in the communities from 
which they come, to get a sense of how safe their friends and 
relatives feel in those communities. That's where they're 
getting a lot of their information.
    Certain conditions must be put in place for these displaced 
populations to feel that they can return. They need access to 
accurate information, they need an acceptable level of 
security, they need a package of support that's offered by the 
international community.
    The evidence is clear that the Government of Iraq needs our 
help in this task, and this is, in large part, due to the fact 
that ministries, such as the Ministry of Displacement and 
Migration, with whom we work, have demonstrated the commitment 
and the willingness to assume their roles, but truly don't have 
the capacity to do so.
    I'd like to focus on some recommendations. There are 
certainly many compelling reasons why the United States should 
remain engaged and support the Iraqi Government in helping to 
establish conditions for long-term solutions for displaced 
Iraqis. Certainly, Iraq is vital to the stability of the Middle 
East. Considering the conditions I've described, the United 
States policy toward Iraq should develop and implement a 
strategy to address the crisis of IDPs and refugees in 
neighboring countries that figures prominently in the 
administration's plan for political and economic stability in 
Iraq.
    There should be increased support for humanitarian efforts 
aimed at fostering the conditions necessary for safe and 
sustainable return. Additional resources should be provided to 
USAID, USAID's Office of Foreign Disaster Assistance, and the 
Department of State to help them achieve the humanitarian and 
development objectives necessary to address this crisis in a 
comprehensive manner, and we should urge--and, very 
importantly, support--the Iraqi Government in the development 
of a unified legal and administrative framework designed to 
ensure safe and sustainable returns. Finally, we should 
accelerate technical and capacity-building measures within the 
Iraqi Government ministries to help them comprehensively 
address the country's displacement crisis. Managing this crisis 
must be an Iraqi-led process, it cannot be carried out solely 
by the rest of us, and it requires close collaboration with the 
Iraqi Government.
    Thank you for the opportunity to testify today.
    [The prepared statement of Ms. Aossey follows:]

 Prepared Statement of Nancy A. Aossey, President and Chief Executive 
         Officer, International Medical Corps, Los Angeles, CA

    Chairman Casey, Senator Risch, members of the subcommittee, I am 
Nancy Aossey, President and CEO of International Medical Corps, a 
private, nonprofit, nongovernmental organization headquartered in Los 
Angeles, California, that has been working continuously in Iraq since 
the spring of 2003 and is currently assisting Iraqi refugees in Jordan, 
Syria, and Lebanon.
    Thank you for the invitation to testify and the opportunity to 
appear before you. We applaud your decision to conduct this hearing on 
the plight of the millions of Iraqis forced from their homes over the 
past 6 years.
    I have led International Medical Corps for the past 23 years since 
shortly after its founding in 1984. I would like to share with you 
today our unique perspective as a humanitarian assistance organization 
that has worked for nearly 6 years with displaced Iraqis and their 
families both on the ground in Iraq and in the neighboring countries. 
International Medical Corps' work in the region seeks to promote self-
reliance and advance long-term development by targeting four key 
sectors: Health, humanitarian assistance, capacity-building, and 
democracy and governance.
    International Medical Corps was founded by volunteer doctors and 
nurses to train mid-level health care workers in Afghanistan. We are 
now a global humanitarian organization dedicated to saving lives and 
relieving suffering of those affected by war, natural disaster and 
disease and to delivering vital health care services that incorporate 
capacity-building of our counterparts. International Medical Corps 
helps people return to self-reliance by enabling the development of 
essential skills for health, livelihoods, rehabilitation and service 
delivery. We implement major emergency relief and longer term 
transitional and development programs that provide comprehensive health 
and nutrition services, rehabilitate infrastructure, train local 
personnel and enhance community participation and development in more 
than 20 countries worldwide. Those countries today include Iraq, 
Jordan, Syria, and Lebanon, where the overwhelming majority of the 
displaced Iraqis currently reside.
    At your request, I will focus my testimony today on the present day 
realities in the region for the displaced Iraqi population, how I 
believe the process of return and resettlement will proceed and how the 
United States can best play a constructive role in coordination with 
the Iraqi Government and the international community. I will conclude 
with recommendations to the administration for addressing the current 
crisis.
    My comments are based on International Medical Corps' considerable 
experience in dealing with the current crisis--our experience is 
certainly among the broadest and deepest of the nongovernmental, 
humanitarian relief organizations operating in the Middle East region. 
Although exact numbers are difficult to obtain, the United Nations High 
Commissioner for Refugees (UNHCR) estimates the current total 
displacement in the region at 4.7 million people. Of that number, 
approximately 2.7 million have been displaced inside Iraq, and up to 2 
million refugees are estimated to have fled to neighboring countries.
    International Medical Corps has been in Iraq without interruption 
since the spring of 2003, and has operated extensively in all of the 
country's 18 governorates. We have worked in the region, providing 
assistance to a target population of 3 million inside Iraq and are 
currently serving a beneficiary population of nearly 200,000 Iraqi 
refugees in Syria, Jordan, and Lebanon. We have implemented programs in 
these areas totaling over $150 million as of December 2008.
    We currently have more than 500 staff members inside Iraq, 
including 22 expatriates and over 40 visiting technical experts. In 
Syria, Jordan, and Lebanon, we have more than 200 staff, including 13 
expatriates. The vast majority of local staff we hire comes from the 
communities where we work. We have worked in coordination with a 
variety of U.S. agencies and departments, including the U.S. Embassy in 
Baghdad, the U.S. Agency for International. Development (USAID), the 
U.S. Department of State, as well as with United Nations agencies, 
international and Iraqi nongovernmental organizations and local 
religious and tribal leaders.
    Despite an extremely difficult environment, International Medical 
Corps has worked continuously inside Iraq since 2003. In Baghdad, our 
staff live and work in the so-called ``red zone''--the majority of the 
city that is outside the tightly guarded, high security ``green zone'' 
that is home to the U.S. Embassy, the Iraq Parliament and the 
residences and offices of many of the international organizations 
working in Iraq.
    We have been able to work outside the green zone without a heavy 
security presence. Our ability to do this lies in our disciplined 
adherence to a few basic ``musts.'' First, we operate on the principle 
of acceptance of our presence and our work by the local population. 
Second, we depend on building close ties to the communities where we 
work. In addition to hiring staff locally, we consult and collaborate 
with Iraqi institutions, local leaders and groups and government 
officials at all levels in order to build the necessary support for our 
relief, development, and training efforts. Third, the currency of these 
relationships is a common understanding and trust. In a very real 
sense, our word has been our bond.
    For example, today in Iraq, International Medical Corps projects 
build the capacity of the government while concurrently providing 
direct services to Iraqis. In the health sector, we implement 
continuing medical education and professional development programs for 
health workers, recently, training more than 200 health professionals 
in anaesthesia, ophthalmology, emergency medicine, psychiatry, and 
obstetrics/gynecology. International Medical Corps also responds to 
emergency situations, including specific incidents that have resulted 
in displacement. For example, when violence erupted in Mosul, in early 
October 2008, militants forced more than 11,000 of the city's 
Christians to flee. With financial support from USAID's Office of 
Foreign Disaster Assistance (OFDA), within 24 hours we procured and 
delivered emergency food rations, hygiene kits, and household items to 
displaced families. Also with funding from OFDA, we are assisting the 
Ministry of Displacement and Migration in operating Returnee Assistance 
Centers to provide immediate and longer term assistance to internally 
displaced people and refugee returnees, including registration, 
protection, legal assistance and ministerial capacity-building.
    International Medical Corps has used our unique position to conduct 
original research on the flow of internally displaced Iraqis--
especially in and out of Baghdad and also within Baghdad itself. Our 
January 2007 report on displacement in Baghdad was among the very first 
to document the gravity and scope of the violence-driven shifts of 
populations underway in Iraq. Our role as an American nongovernmental, 
international relief agency working in both Iraq and three neighboring 
countries hosting some of the largest concentrations of displaced 
Iraqis gives us a special perspective on the impact of the crisis 
across the Middle East region.
    Despite the size of the problem, the plight of Iraq's displaced 
people is largely invisible. There are no sprawling tent camps or 
dramatic airdrops to capture international attention. Instead, the 
majority of Iraq's displaced population has found shelter quietly, 
often in the poorest neighborhoods of unfamiliar communities, sometimes 
with friends and relatives inside Iraq, sometimes amid strangers in an 
overcrowded foreign city. Most are forced to live on their savings 
because there is little or no work available. In many cases the 
communities hosting the 2.7 million internally displaced Iraqis are as 
destitute as those they are helping. For the majority of the estimated 
2 million other displaced Iraqis who have sought safety in neighboring 
countries, work is illegal and livelihood opportunities are extremely 
limited to nonexistent. Because they have fled their country of origin, 
they are officially known as refugees.
    I believe the international community owes a debt of gratitude to 
those nations of the Middle East that have taken in large numbers of 
these refugees and accepted the economic, social, and political burdens 
that have come with them--all with limited support from the world at 
large and from the Government of Iraq. That said the work of important 
donor agencies, including USAID, the State Department's Bureau of 
Populations, Refugees and Migration (PRM) and U.N. agencies such as the 
U.N. Children's Fund (UNICEF) and UNHCR have played important roles in 
helping ease the suffering.
    If there is good news about the crisis of displaced Iraqis in the 
spring of 2009, it is that the number of those on the move has slowed 
substantially. According to a February 2009 report by the International 
Organization for Migration (IOM), the numbers of newly displaced 
families has dropped from an average of 16,000 per month during most of 
2006 and early 2007 to only a few hundred families per month in the 
final months of 2008. Many of these new displacements stem from 
specific events, such as militia attacks against Christians in the 
northern city of Mosul last fall.
    The bad news, however, is that all too many of the millions of 
displaced Iraqis are suffering the predictable ills of substandard 
life. They are experiencing deteriorating health, plummeting income 
levels, reduced education, poor, overcrowded living conditions and the 
psychological weight of living a life on hold, uncertain when it might 
end.
    At a political level, the internal displacement of nearly 10 
percent of its population has a serious impact on Iraq's economic 
development prospects and saddled the government with daunting social 
and political problems. Outside Iraq itself, the presence of such a 
large and economically unproductive refugee population has added an 
additional burden on host nations already struggling to provide for 
their own. The pressures of the global economic downturn merely 
exacerbate the situation, building upon social tensions in countries 
where citizens suddenly find themselves competing with refugees for 
such fundamentals as adequate health care. In short, the conditions in 
which the majority of displaced Iraqis currently live is unsustainable 
over the long term.
    As a real, yet fragile, degree of security has settled over Iraq 
over the past several months, some of the displaced families have begun 
to return home. The numbers remain small--just under 300,000 
individuals so far, according to the most recent IOM figures. That 
figure is less than 6 percent of the total displaced population. Nine 
of every ten returnees are internally displaced, that is they are 
returning to their locations of origin from other parts of Iraq. That 
means the burdens on neighboring countries hosting refugees remains 
essentially unchanged despite the improved security situation.
    Our own internal research tells us the majority of those heading 
home have cited improved security conditions as their reason for moving 
back. We also know from historical experience that the majority of 
people forced to leave their homes prefer to return once conditions on 
the ground are in place that provide a safe and secure environment. We 
know too that for some, returning may not be an option, and other 
durable solutions, including resettlement in another country, must be 
made available.
    While evidence of returns is heartening, I believe we need to be 
careful not to move too quickly on this front. To push for accelerated 
returns before the proper conditions are achieved could effectively 
cause us to exchange existing problems for new, equally complex, and 
possibly more dangerous, concerns.
                         the process of return
    The process of return poses major challenges to the Government of 
Iraq. To succeed, it will need the help of the United States and other 
members of the international community. While the Iraqis have 
instituted a few support measures to help those returning home, they 
have been insufficient and only marginally effective. The unfortunate 
reality is that the Government of Iraq has yet to develop a 
comprehensive strategy to deal with this issue.
    Most importantly, necessary conditions must be met that enable both 
refugees in neighboring countries and those displaced internally to 
return home voluntarily, in safety and with dignity. Some of these 
conditions are already in place. For example, with a popularly elected 
Government, a Constitution, and an active Parliament, Iraq today is 
increasingly a nation that functions under the rule of law. Other 
important conditions are also necessary. I will name just a few:

  <bullet> Access to accurate information is a key concern for 
        displaced Iraqis as they consider returning to their place of 
        origin. We know that displaced populations tend to return in 
        large numbers when they believe they have reliable, accurate, 
        and objective information on their locations of origin or 
        habitual residence. It is also clear that refugees most often 
        rely on sources of information they most trust--that is the 
        local community, family, friends, and relatives still living in 
        the location of origin.

    We believe that improving the flow of credible and independent 
information is a critical component in helping refugees and internally 
displaced Iraqis in the decisionmaking process of when--or if--they 
should return home. This reality merely underscores the need for a 
community-based approach to providing information. A forthcoming survey 
on Iraqi internal displacement, conducted by International Medical 
Corps in conjunction with the Iraqi Ministry of Displacement and 
Migration and the United Nations, found that displaced Iraqi 
individuals and families overwhelmingly turned to the local community 
for information and even tried to visit themselves where possible. Few, 
however, turned to local or national authorities or other government 
channels. We at International Medical Corps have worked to open these 
channels in order to facilitate the flow of information by setting up a 
web portal at a returnee acceptance center in Baghdad. The web portal 
was established in cooperation with local community councils and 
leaders to provide information on specific Baghdad neighborhoods and 
share experiences with members of displaced families who have already 
returned. It also serves as an information source for displaced people 
to learn about the registration process and learn what they can expect 
to receive in terms of financial and social benefits upon return.

  <bullet> There must also be an acceptable level of security. Security 
        has improved dramatically in Iraq over the past year, but 
        remains fragile and uncertain. According to a Government 
        Accounting Office (GAO) report on Iraq released earlier this 
        month, the number of insurgent-initiated attacks fell from 
        nearly 180 per day in June 2007 to 27 per day in January 2009. 
        The challenge here is to make the security gains sustainable so 
        that security becomes stability--an essential ingredient to 
        ending the displacement crisis successfully. To achieve this 
        requires the continued commitment of the Iraqi Government. As 
        the number of U.S. troops decreases, it is of course important 
        to further the ability of the national government to provide 
        security for its citizens. Support for other efforts that 
        promote national reconciliation are also critical in helping to 
        establish a stable and secure environment--for example, efforts 
        that promote interreligious and intersectarian dialogue and 
        understanding.

  <bullet> The Iraqi Government must develop a strategic framework to 
        deal with the returns in a systematic, coordinated manner and 
        be in a position to provide a package of support specifically 
        tailored to the needs of those returning, such as a functioning 
        mechanism for resolving disputes over property abandoned in 
        haste. The, government must also be able to provide the basic 
        public services to the community at large, including health 
        services and education, and assure the availability of both 
        affordable housing and employment opportunities. The job will 
        not be easy. Both Iraqi refugees and those displaced internally 
        remain in desperate need of immediate humanitarian assistance 
        ranging from health care, water and food to housing, education 
        and economic opportunities. They will also require longer term 
        assistance to help them rebuild their lives and fully integrate 
        into society.

    The Government of Iraq has struggled--and often failed--to meet the 
needs of the relatively small number of displaced Iraqis who have 
returned so far. In general, the displaced remain in a precarious 
situation across Iraq and little attention or effort has been devoted 
to helping them reintegrate into their original communities. Property 
issues have been, and will continue to be, an important challenge for 
those responsible for managing the returns process. Over half of the 
families who return to their original location report that their homes 
are seriously damaged or occupied by another family, according to data 
from the IOM. To succeed in the larger task ahead, the Government of 
Iraq will need the support of the international community--including 
the United States, the United Nations, and nongovernment organizations 
with experience of such crises such as International Medical Corps.
    To prepare for a greater flow of returns, the Iraqi Government's 
Ministry of Displacement and Migration has taken some steps. It has 
opened Returnee Assistance Centers in Baghdad, and others are planned 
for areas outside the capital. The Iraqi Government also provides one-
time grants of 1 million dinars per family--an amount equivalent to 
about $850--to help ease the financial costs of returning home. 
Officially, the decision to return rests with the individual displaced 
families. However, concern has been expressed by a number of 
international groups supporting displaced Iraqis that the present poor 
conditions in which the displaced currently live could lead to returns 
that are not truly voluntary. Mounting political pressure for return 
from some of the governments involved in the crisis may also result in 
the displaced returning at a time conditions on the ground may not yet 
be suitable, safe, or sustainable.
    Returning to one's place of origin is the preferred durable 
solution for any displaced population, while recognizing that there 
need to be options in place for those who feel that they cannot return. 
But return can only--I repeat--only occur when Iraqi families feel it 
is safe and secure to do so. Returns must take place in an environment 
of confidence, dignity, safety, and mutual respect. Conditions for 
return must also be sustainable. In such an atmosphere, I can assure 
this committee that International Medical Corps and other 
nongovernmental organizations inside the country will be well-
positioned to assist returnees as they meet the many challenges 
involved in the transition back home to a productive, peaceful life.
    While the evidence of returns is heartening, I believe we need to 
be careful not to move forward too quickly. To push for accelerated 
returns before the proper conditions are achieved could effectively 
cause us to exchange existing problems for a new, equally complex--and 
possibly more dangerous--set of challenges. We must also ensure that 
other options, such as resettlement in a third country, and integration 
into current communities; are available to those for whom return is not 
appropriate.
    In the struggle to stabilize Iraq, every year has been heralded as 
``critical.'' Yet, coming after the surge, with provincial and national 
elections looming, U.S. forces due to withdraw from cities and towns, 
and a new U.S. administration to take the helm during a time of 
unprecedented domestic and international economic upheaval--2009 truly 
promises to be a watershed in the Iraq conflict. The staying power of 
Iraqi civil and security institutions, and therefore U.S. investment in 
building their capacities, will be sorely tested.
                     the role of the united states
    After 6 years of sacrifice and tens of billions of dollars of 
investment to rebuild Iraq, International Medical Corps believes the 
United States would be ill-advised, at this important juncture, to 
reduce U.S. support of Iraq's development process. Technical assistance 
from the United States, the United Nations and other international 
agencies and organizations is a must in order to assure robust and 
fully supported programs that create jobs, stabilize local economies, 
and raise the prospect of a better future for all Iraqis.
    There are also compelling reasons why the United States must remain 
fully engaged in Iraq at this crucial time.

--Because a stable Iraq is vital to the stability of the broader Middle 
    East, the United States must reinforce its efforts to strengthen 
    the Iraqi Government's capacity at all levels to respond to the 
    needs of its people, regain their trust and rebuild the kind of 
    strong, prosperous communities that lie at the heart of a stable 
    nation.
--Such efforts are the most effective weapon against a resurgence of 
    extremism. And at a time large numbers of displaced Iraqis weigh 
    the possibility of returning home, effective measures are needed to 
    improve the chances of the successful reintegration of these 
    returnees. If this process of return fails, the result will be 
    heightened social tensions and a very real danger of a new descent 
    into violence.
--It is also important that the United States set an example of moral 
    leadership in helping the Iraqis help the most vulnerable elements 
    of their population--the more than 4.7 million displaced by 
    violence.

    I can assure members of this subcommittee there is compelling 
evidence that the Government of Iraq needs help in this task. I am 
encouraged that those in key Iraqi Government ministries understand 
this fact and want our help. They have demonstrated a commitment and a 
willingness to reform. International Medical Corps has experienced this 
firsthand as it has worked to strengthen the capacity of important 
ministries, including the Ministry of Displacement and Migration, a key 
ministry in the process of return.
    Currently, however, the majority of Iraqi ministries are crippled 
by problems of political patronage, unskilled staff, bureaucratic 
inertia and decisionmaking processes that are unnecessarily convoluted 
and highly centralized. The price of such practices is high. I cite 
just one example: The recently released GAO report on Iraq noted that 
central goyernment ministries responsible for providing essential 
services to the Iraqi people managed to spend only 11 percent of their 
2007 budgets. We do not believe such problems should be addressed by 
sending in battalions of outside advisers, many of whom may not even 
possess the needed expertise. Our experience tells us that carefully 
calibrated, targeted assistance deployed to work on well-defined issues 
is an efficient, cost-effective way to generate meaningful results.
    Since 2006, International Medical Corps has been at the forefront 
of efforts to improve the capacities of these ministries. We have 
assisted numerous Iraqi ministries in improving their technical, 
managerial, and administrative capacities with the aim of promoting 
good governance, transparency, and improvement in the delivery of 
essential services to Iraq's citizens. Central to our approach to 
building the capacity of the Iraqi Government to serve its people is 
the belief that ``professional development'' is not a one-off event, 
but rather a continuous process of improvement and growth through the 
accumulation of skills and ideas.
    Most recently, International Medical Corps has been working in 
partnership with the ministries of Migration and Displacement, Health, 
and Labor and Social Affairs to design and deliver programs tailored to 
address each ministry's existing gaps in capacity and improve the skill 
sets of senior and middle management. The success of our programs in 
this area has led to an increase in requests from Iraqi ministries for 
the establishment of direct partnerships. Such partnerships would 
strengthen staff capacity and ensure that public sector employees 
possess the skill sets necessary to provide high quality services to 
the population. To fail to respond to such requests would, in my 
opinion, be simply irresponsible.
        the regional picture: hidden suffering, unseen pressures
    The estimated 2 million Iraqis who fled to neighboring countries 
and now wait to come home do not fit the refugee stereotype. They don't 
live in camps and only a minority has registered with UNHCR. None of 
the three host countries where International Medical Corps works--
Syria, Jordan, and Lebanon--has signed the 1951 Refugee Convention, the 
cornerstone document in international law that defines both the rights 
of a refugee and the obligations of a hosting country. The result of 
all this means that Iraqis who have fled to these countries live amid 
considerable uncertainty.
    An International Medical Corps assessment in all three countries 
conducted in early 2007 found that the majority are living with limited 
access to health care and education. Having left their homes and jobs 
behind, many Iraqis have lost a stable income and live in squalid 
conditions, depending on loans and gifts. Working legally is extremely 
difficult. Our research found that most Iraqis in exile are extremely 
vulnerable. Women and children especially show signs of declining 
health and social isolation. In all three countries, Iraqis have fled 
insecurity only to face severe poverty and deprivation.
    In these countries, International Medical Corps has operated a 
series of services for refugees, ranging from continuing medical 
education and continuing professional development programs that target 
the skills of Iraqi refugee professionals to the distribution of 
nonfood items, such as mattresses, blankets, children's clothing and 
diapers, to improve living conditions.
    To all but the discerning eye, the Iraqi refugees are unseen, many 
of them swallowed up in the poorer neighborhoods of Damascus and Amman 
and the southern suburbs of Beirut. The price of relative safety in a 
foreign land has been steep for an Iraqi refugee population, much of 
which once considered itself part of a well-educated middle class. In 
Syria, for example, nearly one-third of the refugees have a college 
degree, according to UNHCR. One-third expects their financial resources 
will last for 3 months or less. The refugees scattered across the 
region come from different areas of Iraq, but a majority share a common 
dream. They want to go home.
Syria
    International Medical Corps began working in Syria in 2007 and 
continues to be the only American medical nongovernment organization 
authorized or officially registered to operate there. Over half of all 
Iraqi refugees in the current crisis have fled to Syria, a country that 
suddenly finds itself host to the world's largest concentration of 
Iraqis outside of Iraq. Worried about being overwhelmed by the wave of 
refugees that followed the February 2006 bombing of a holy Shiite 
shrine in Samara, Syrian authorities ended unrestricted entry for 
Iraqis in the fall of 2007 and implemented visa requirements that allow 
entry to certain categories, such as academics and their families, 
students, and a limited number of other categories.
    Under programs funded by PRM and in collaboration with the Syrian 
Arab Red Crescent, International Medical Corps operates clinics in four 
different Syrian communities, focusing on providing comprehensive 
primary and preventative health care needs for some of the most 
vulnerable refugees. Over a 6-month period, International Medical 
Corps-supported clinics provided nearly 50,000 consultations, an effort 
that helped ease pressures on Syria's existing health infrastructure--
one already hard-pressed to meet the demands of its own citizens.
    In the past 18 months, conditions for some refugees have eased 
following the arrival of several international assistance groups, 
including U.N. organizations such as UNHCR, the World Health 
Organization, the World Food Programme, and UNICEF.
    I would like to cite an example of the impact assistance from the 
United States has made at a very personal level. It is the story of a 
young Iraqi girl named Zainab, whom we saw at an International Medical 
Corps clinic in Syria. She had acute lymphoblastic leukemia, but had to 
stop her treatment short because it was so expensive. We approached our 
U.S. Government donor about the possibility of including care for 
chronic and complicated health issues in its already successful Syria-
Iraqi Refugee Assistance Program. Shortly after, a program was launched 
that brought specialized treatment to people suffering, chronic 
conditions, including Zainab. Although Zainab died of leukemia last 
December, the program she inspired is saving lives. Three Iraqi women 
in the program would not otherwise have received care for their high-
risk pregnancies and were scheduled for Cesarean-section births to 
bring their babies into the world safely, thanks to American assistance 
and the inspiration of a remarkable child.
Jordan
    Conditions for Iraqi refugees in Jordan are also difficult. Iraqis 
in Jordan equal about 8 percent of the country's own population. Visa 
requirements have limited the entry of many Iraqis trying to enter the 
country, while Western human rights groups have reported a 
disproportionate number of young men being turned back at the border. 
Once in Jordan, life is tenuous for Iraqi refugees. Their legal status 
is unclear and opportunities for work are severely restricted. Only one 
in five low-income Iraqis reported having a valid residence permit, 
according the UNHCR. As in Syria, some Iraqis live off their savings, 
while others are supported by relatives from outside the country. 
According to UNHCR statistics, one in five families is headed by a 
female--an additional burden in the Arab world--and are often found 
living among more impoverished elements of society. Despite this, the 
overwhelming majority of Iraqis recently surveyed in Jordan by UNHCR--
95 percent--said they wanted to return to Iraq only when security 
conditions had improved.
    Much as in Syria, the addition of a large and vulnerable population 
of Iraqi refugees has strained Jordan's public services, including its 
health care system. Iraqis have access to the same medical services as 
Jordanians, but the overall health infrastructure lacks the capacity to 
provide comprehensive primary health care services to the enlarged 
population. As the Iraqi refugee population grew, Jordan also opened 
its schools to Iraqi children.
    International Medical Corps' programs in Jordan have serviced the 
Iraqi refugee population since 2007, while at the same time also 
providing critical services to vulnerable Jordanians. Working from 
clinics and mobile units, International Medical Corps provides 
community level primary and mental health services and is working to 
boost the ability of Jordan's primary health care providers to deal 
with mental illness through theoretical and on-the-job training. 
International Medical Corps also offers pediatric health screenings and 
facilitates mother-to-mother support groups that deal with health care 
and other child-rearing issues. Because the women are under stress, we 
have found these sessions are often emotional. In one such meeting, a 
woman named Hadaf introduces herself with one sentence. ``I am an Iraqi 
woman; I have no other aim than going home one day.'' Her comment came 
in what is called the ``ice breaker,'' when women tell the other women 
in the group about themselves in a few sentences. Within minutes all of 
them are crying, for themselves and the other Iraqi mothers in the room 
whom they never met before but who share their hardship, their 
homesickness, and their lost sense of belonging in exile.
    The workshops, run by social workers from International Medical 
Corps and the Jordan River Foundation, address how these women can 
build positive relationships with their children and discover how to 
change negative practices. The project is a small but important 
component of a far larger effort to improve the quality of life for 
Iraqi refugees. It is funded by UNHCR, UNICEF, and PRM. In total, 600 
mothers have participated and 10 of them eventually will become ``peer 
mothers'' and train others in improving the well-being of their 
children.
Lebanon
    For the estimated 50,000 Iraqi refugees in Lebanon, where 
International Medical Corps has worked since 2006, conditions appear to 
have improved over the past year, although they remain arduous. Due to 
Lebanon's delicate religious and sectarian balance, integrating or 
legalizing Iraqi refugees is not a political option. The majority of 
Iraqis in Lebanon are young, single men, not permitted to work legally. 
A quarter of them are Christian. Prior to February 2008, human rights 
groups, such as Amnesty International, reported that Lebanese 
authorities arrested and detained hundreds of Iraqis, who were then 
held indefinitely on charges of being in the country illegally. The 
tactic was viewed by many as an apparent attempt to coerce the refugees 
to return to Iraq. Early last year, the Lebanese Government changed 
course, introducing a program to legalize foreign nationals and offer 
them year-long residence and work permits; however the costs and 
necessary bureaucratic steps made the offer difficult to fulfill. 
Still, according to a June 2008 Amnesty International report, the 
number of refugees in detention had dropped from about 600 in early 
2008 to less than 150 five months later.
    Iraqi refugees have settled in various parts of Lebanon, but the 
majority now lives in Beirut's southern suburbs, an area where the 
government's law enforcement has been historically weak. A second 
concentration, mainly comprising Iraqi Christians from Mosul and 
Baghdad, has come together in the poor Christian neighborhoods of 
northeast Beirut. Many of the estimated 11,000 Christians fleeing 
intimidation and violence carried out by militia groups in Mosul ended 
up in Beirut because of the relative freedom of Christians to follow 
their faith there. The story of one such family that received support 
from International Medical Corps helps illustrate the fate of Iraq's 
Christian minority in Lebanon. The family of five, including two 
infants, headed by a man named Nawar, managed to escape Mosul with 
little more than the clothes on their back. They came to Beirut 
because, like other Christians, they felt it was a safe place to 
practice their faith. The entire family lives in a one-bedroom 
apartment with no heating and sporadic electricity. Both Nawar and his 
mother have health problems, and because Nawar cannot work, they don't 
have the money to buy the nutrient-rich food his infant sons require. 
An International Medical Corps mobile medical unit provides free food 
supplements, clothing, hygiene kits and even complete physical exams to 
Nawar's family and other refugee families with young children.
              iraq: encouraging security, elusive stabilty
    International Medical Corps assessment teams first crossed into 
Iraq from Kuwait in March 2003, amid concerns that heavy fighting would 
generate a large population of refugees or internally displaced persons 
(IDPs). As we now know, those population movements only came later--
beginning in 2004 and escalating with the rise in sectarian violence, 
the beginning of al-Qaeda operations in western Iraq and a dramatic 
deterioration of security in many areas of the country.
Changing security landscape and the rise in returns
    It is evident that overall living conditions in Iraq have improved. 
Physical and human security has especially improved in ways we could 
only hope for just 18 months ago. These dramatic changes in Iraq's 
internal dynamics have also had a strong effect on the issue of 
displacement within the country and across its borders. By late 2007, 
it was clear that displaced Iraqis were beginning to feel confident and 
safe enough to begin weighing a return to their homes and locations of 
habitual residence.
    Since then the number of returns has increased steadily, with the 
most notable rise taking place in Baghdad, where it is estimated that 
upward of 31,521 families (or 189,126 individuals) have returned to the 
governorate, according to the February 2009 IOM Emergency Needs 
Assessment Report. That constitutes nearly two-thirds of all returnees. 
According to the same report, returns have also picked up in areas of 
the country that were once subject to some of the worst of the 
country's sectarian-based violence. In Diyala, for example, 8,818 
families (or 52,908 individuals) have returned, while 4,542 families 
(or 27,525 individuals) have returned to Anbar.
    As noted earlier, issues surrounding property rights represent just 
one problem displaced Iraqis face as they return home, attempt to 
reclaim their lives and begin anew. Among the others:
Security--real but fragile
    Security continues to be a priority concern for displaced Iraqis as 
they weigh the possibility of return--whether they be refugees residing 
outside the country or those who have been displaced inside Iraq. And 
although there have been major improvements in the last several months, 
the tangible gains are considered fragile and the perception of 
displaced population is that it is generally not yet stable enough for 
them to return to their place of origin. There are also several factors 
that will test the strength of the existing calm in the months ahead. 
For example, the Iraqi Government's inability to spend money already 
budgeted coupled with the unexpectedly sharp decline in the price of 
oil have raised the prospect of cuts in the Iraqi military, which is 
now the single most important player in maintaining law and order in 
the country. Another vital component in Iraq's security fabric is the 
U.S. military presence, which is also expected to decline steadily in 
numbers. At the same time, tensions are rising between the government 
and the mainly Sunni militias that have helped keep the peace in Sunni-
dominated western Iraq.
    The early stages of the return process constitute an especially 
delicate time, both socially and politically, in a society such as 
Iraq, so deeply divided along both sectarian and ethnic lines. 
Significant population movements can easily reignite violence and 
therefore need to be handled very cautiously. However, the inability to 
spend money already appropriated for essential services plus worries 
about shrinking oil revenues could also limit the kind of Iraqi 
Government support needed to ease social tensions, such as new jobs and 
public services.
Kirkuk--exception to a larger calm
    Unlike most of Iraq, security in the key northern city of Kirkuk 
has not improved and in some areas has actually worsened. It still 
presents a difficult security challenge for the Government of Iraq. The 
city has sizable populations of nearly all Iraq's ethnic, religious, 
and linguistic groups, in addition to one-third of Iraq's proven oil 
deposits. It is also an anomaly in that both its displaced and returnee 
populations, unlike the rest of Iraq, continue to be highly mixed in 
their ethnicity, religion, and language. Because of its oil, Kirkuk has 
long been the object of a power struggle between Kurds and Arabs, and 
the enormity of the economic stakes, coupled with the social tensions, 
make the issue as delicate as it is complicated.
The call for a more comprehensive approach to the needs of the 
        displaced
    Increasing humanitarian aid to those still displaced is needed to 
avoid so-called push factors--factors driving the displaced from their 
current location and effectively forcing them to return home. If 
displaced Iraqis return home because they cannot access basic services 
in their location of displacement (as is currently the case in many 
areas), it does not qualify as a voluntary, safe, and dignified return. 
Meeting the immediate humanitarian needs of displaced Iraqis must be 
kept a priority and cannot be sidelined even in the face of increasing 
returns.
    For those who do choose to return home, assistance must move beyond 
the current level provided to them--primarily a one-time monetary 
grant. Returns should be sustainable, and conditions must be in place 
to make that happen. Basic services, including employment generation 
activities and such services as psychosocial assistance, vocational and 
skills training and child development activities, should be extended to 
populations that host displaced people, as well as vulnerable 
communities and populations where returns are taking place.
    Speaking for an organization with vast experience in the health 
sector, I can attest that Iraq's health care system has been hit hard 
by the flight of skilled medical professionals, and important gaps now 
exist in access to medicine and equipment, while medical facilities 
have been damaged or neglected. While affecting all Iraqis, this 
situation disproportionately impacts the internally displaced and other 
vulnerable populations, where a lack of quality health care increases 
the spread of disease and worsens the impact of chronic health 
conditions.
The option of staying put
    Because of these and other difficulties, there is evidence to 
suggest that many of those displaced inside Iraq appear to be 
considering the option of remaining where they are. A large number of 
families participating in the national survey on internal displacement 
said they preferred to integrate locally into their current community 
rather than return home. Depending on the area of the country, the 
percentage of families expressing this desire ranged from roughly half 
to almost 80 percent, according to preliminary data gathered by 
International Medical Corps and the Iraqi Ministry of Displacement and 
Migration.
    However, there are also problems for IDPs in trying to settle 
permanently where they are. For example, there are serious disparities 
in the level and quality of services offered in different parts of the 
country. The data gathered through the national survey on internally 
displaced Iraqis suggest this disparity falls mainly along sectarian 
lines, with IDPs in predominantly Sunni areas having more difficulty in 
accessing government benefits and services. Between 70 percent and 85 
percent of the IDPs questioned during the survey reported they were 
dependent on some form of assistance as their main source of income.
The fate of minorities
    As a country whose land encompasses both the cradle of civilization 
and some of the region's most well-traveled ancient trade routes, Iraq 
is home to a generous sprinkling of ethnic, religious, and national 
minorities, including Jews, Christians, Turkmen, Kurds, Yazidis, 
Palestinians, and Mandaeans. With the exception of the Kurds, who 
govern three northern governorates of Iraq where they constitute a 
majority of the population, most of Iraq's minorities have suffered 
disproportionately during the past years of unrestrained violence. As a 
result, their numbers have declined sharply. Iraq's Ministry of 
Displacement and Migration estimates nearly half the country's non-
Kurdish minority population is no longer in the country. According to a 
recently released Brookings Institution report on Iraqi minorities, all 
but a handful of Iraq's few hundred remaining Jews have fled the 
country, the Turkomen population has dropped by about 75 percent, the 
Palestinians by over half and a sizable Christian minority of as many 
as 1.4 million is now believed to be between 600,000 and 800,000, 
according to Ministry figures.
    Many Christians have taken refuge in Lebanon, while others have 
sought resettlement to third countries, including the United States, 
Canada, Australia, and Europe.
 recommendations: an agenda for fostering stability and sustainability
    While recognizing that humanitarian crises require political 
solutions, it should also be recognized that addressing Iraq's 
displacement crisis is a key element in achieving sustainable peace and 
security in Iraq and the region. The United States must also 
demonstrate moral leadership in helping to resolve the crisis of Iraqi 
refugees and internally displaced persons.
    How the displacement crisis is handled--by this administration, the 
Iraqi Government, countries hosting the refugees and the broader 
international community--will have far reaching consequences. Decisions 
regarding return, repatriation, and resettlement should not be made in 
haste and must ensure that the best interest of displaced Iraqis, not 
political pressure, is the guiding factor in determining the 
appropriate solutions.
    An effective strategy will mean ensuring that immediate needs of 
IDPs, refugees, and returnees are met, in addition to longer term 
planning to develop effective policies that address the underlying 
social, political, economic and cultural dimensions of the crisis.
    Considering the conditions that I have just described, I recommend 
the following elements be included in U.S. policy toward Iraq:

    1. Implement a strategy to address the crisis of Iraqi displacement 
that figures prominently in the administration's plan for political and 
economic stability in Iraq as it decreases its military presence over 
the coming months.
    It should be acknowledged that addressing Iraq's displacement 
crisis is a key element to ensuring a sustainable peace in Iraq and the 
region. Focused, high-level U.S. Government engagement and coordinated, 
strategic planning among U.S. agencies is critical in both addressing 
the needs surrounding displacement and in helping to facilitate steps 
toward durable solutions.
    Working together with the Iraqi Government, U.N. agencies and other 
international actors, the U.S. Government can develop its strategy that 
will support Iraqi communities. With the change of administration, such 
a focused approach would signal to Iraq, the region, and the 
international stage that the U.S. Government is serious about facing 
the challenges surrounding Iraqi displacement.

    2. Increase support for humanitarian efforts aimed at fostering the 
conditions necessary for safe, voluntary and sustainable return.
    Despite the fact that new displacements have virtually ceased, 
those who have been driven from their homes, whether as IDPs or 
refugees, continue to live in dire conditions where access to health 
care, water and sanitation, employment, electricity, education and 
other services is extremely limited. To avoid involuntary returns, 
humanitarian assistance that addresses the current needs of those 
displaced must be increased.
    Similarly, the conditions needed for durable solutions can only 
come when people are well-informed and confident they are returning to 
an environment that can meet their basic needs. Effectively addressing 
this challenge will require the understanding that Iraq's displacement 
crisis is more than a humanitarian emergency, that it is inextricably 
linked to the country's security, stability, and prosperity. Any large-
scale return of displaced Iraqis before adequate support and basic 
services are in place to serve their needs could lead to renewed social 
tensions, conflict, and instability.
    It would be irresponsible and dangerous to assume that the 
challenge is over once IDPs and refugees start returning in large 
numbers. Efforts must focus on building the capacities of the 
Government of Iraq and local communities to deliver more than 
transitional assistance to those returning. Displacement will only 
truly end when people have regular access to services, sustainable 
employment, and adequate housing.
    Additional resources should be provided to USAID and the Department 
of State to achieve the humanitarian and development objectives 
necessary to effectively address the crisis in a comprehensive manner. 
This assistance should be allocated to approaches that are community-
based and through established, accountable agencies and organizations 
that possess the necessary technical expertise and capacity to do the 
job efficiently and well.

    3. Urge and support the Iraqi Government in the development of a 
unified legal and administrative framework designed to ensure safe and 
sustainable returns.
    Beyond working to create conditions that will be conducive to 
returns, the U.S. Government should urge and support the Iraqi 
Government ministries dealing with the crisis--especially the Ministry 
of Displacement and Migration--to develop and implement a comprehensive 
framework and package of measures that ensures sustainable returns and 
durable solutions.
    At the moment, returnees receive some assistance from the Iraqi 
Government, although mainly in the form of financial compensation. 
Followup support, however, is either entirely absent or extremely 
limited and ad hoc in nature. More troubling is the fact that no 
overarching strategy or plan exists at the national, provincial, or 
local level to coordinate the response of government entities 
responsible for managing returns. In order to effectively deal with 
returns, it is imperative that a national legal framework be put in 
place to guide the government's response.
    Supporting and assisting in the development of such a framework 
should be a key priority for the United States Government. By helping 
the Iraqi Government establish a legal and administrative framework for 
returns, the United States will ensure that the Government of Iraq and 
its ministries are up to this crucial task, that ministries and systems 
are synchronized to confront the range of challenging issues arising 
from return, such as property restitution and providing access to basic 
services, documentation, and government benefits.

    4. Accelerate technical and capacity-building measures with Iraqi 
Government ministries to help them comprehensively address the 
country's displacement crisis.
    Managing the displacement crisis must be an Iraqi-led process. It 
must not, indeed cannot, be carried out solely by the United States 
Government, international. nongovernmental organizations, the United 
Nations or any other international agency. A sustainable approach to 
returns, however, will necessitate that Iraq's Government ministries 
are responsive, capable, and functional. Unfortunately, at present most 
Iraqi ministries, including the Ministry of Displacement and Migration 
as the lead ministry on displacement issues, lack the skills, capacity, 
management and general expertise needed to meet these challenges. This 
fact is painfully obvious to the millions of Iraqis living in 
displacement.
    There is, however, reason to be hopeful. There have been successes 
in building Iraqi Government capacity, and we know, firsthand, it can 
be done. U.S. Government-funded projects have allowed International 
Medical Corps and other nongovernmental agencies to carry out capacity-
building programs with a variety of Iraqi ministries. International 
Medical Corps has worked with the Ministry of Health, Ministry of Labor 
and Social Affairs and, most recently, with the Ministry of 
Displacement and Migration. As a result of International Medical Corps' 
work with the Ministry of Displacement and Migration, the ministry was 
able to open on time a much-needed second Returnee Assistance Center in 
west Baghdad. The center has been open since November 2008, and its 
capacity to register returnees is triple that of the original center.
    These successes underscore the need to accelerate technical 
assistance and capacity-building support to Iraq's ministries, 
especially those tasked with handling the displacement crisis.

    In conclusion, I would like to thank you again for inviting me to 
testify before the subcommittee on the critical issue of Iraqi refugees 
and internally displaced persons that is so central to the future 
stability of Iraq.

    Senator Casey. Thank you very much.
    Doctor.

       STATEMENT OF NABIL AL-TIKRITI, ASSISTANT PROFESSOR
 OF HISTORY, UNIVERSITY OF MARY WASHINGTON, FREDERICKSBURG, VA

    Mr. Al-Tikriti. Senator Casey, I wish to thank the 
committee for this opportunity to testify, for the record, on 
the issue of Iraqi sectarianism and forced migration, and its 
effects on Iraq, the Middle East, and the United States.
    Commentators frequently affirm that sectarian violence in 
Iraq springs from age-old ethnic tensions; however, while the 
relevant sectarian identities do date back several centuries, 
sectarian violence has not persisted as a social constant 
throughout the millennia of regional history. In fact, Reidar 
Visser only sees three instances in the last five centuries. 
Rather, outbreaks of sectarian violence have erupted in highly 
specific occasions, most of which can be explained through 
careful analysis of the particular social stresses at the time.
    As in other societies, when long-term shifts, such as 
dwindling natural resources, mass migration, housing shortages, 
or changes in social identity are inflamed by deliberate and 
short-term policy choices, violence can break out.
    In accordance with this presumption and projection of age-
old ethnic tensions, it's the perception of Iraqi society as 
little more than unnatural British creation of the early 20th 
century, held together solely by brute force. Those who see 
Iraq this way also envision Iraq as three distinct 
ethnosectarian regions: A Shia Arab southern Iraq, Sunni Arab 
central Iraq, and Sunni Kurdish northern Iraq. While this 
simplified portrayal does bear some general resemblance to 
ethnosectarian reality, it provides insufficient contextual 
information to competently engage with Iraqi society, one of 
those situations where knowing a little bit is more dangerous 
than knowing nothing.
    If one must classify Iraq according to ethnosectarian 
identity, then there are far more than the three major 
ethnosectarian groupings frequently mentioned. Sizable 
additional groups include the Chaldo-Assyrian Christians, 
Turkoman, Jewish Iraqis, Yazidis, Sabaean-Mandaeans, Shabak, 
Armenians, and several smaller groups. In addition to these 
indigenous categories, several third-country national groups, 
including Palestinians, Mujahidin-i Khalq Iranians, Iranian 
Kurds, and guest workers have settled in Iraq over the past 
several decades, and have found their situations deteriorating 
following the 2003 collapse of the Iraqi state.
    Not only are there several minority groups in Iraq, but the 
three largest ethnosectarian groups, historically, have rarely 
acted in internally coherent fashions. As a result, before 
2003, one might more usefully have categorized Iraqi society as 
being divided between Baghdad and the rest of the country, 
Baath Party members and the rest of society, Kurdish 
nationalists and their opponents, communitarian activists and 
secularists, exiles and residents, tribal confederations, 
various class actors, such as merchants, bureaucrats, peasants, 
and landowners, and several other categories, which no longer 
carry the same relevance today. However, rather than 
recognizing the relevance of such classifications, Americans 
have tended to force Iraq into an artificial tripartite box 
allowing for only Shia, Sunni, and Kurdish categories.
    Unfortunately for Iraq, in the wake of the 2003 invasion, 
occupation authorities insisted--or, rather, instituted 
policies which, in their effect, although not usually in their 
intent, encouraged an increased sectarianism, which eventually 
culminated in the violent geographic consolidation of Iraq's 
ethnosectarian mapping after 2006. Predictably, policymakers at 
the time blamed age-old ethnic conflicts when sectarian 
violence exploded throughout the country after the February 
2006 Samarra Shrine bombing. Several prominent commentators 
even argued for various forms of tripartite state partition as 
a solution for this violence. While a notable shift in United 
States policy in 2007 eventually contributed a calming of the 
violence, the remapping of Iraq's ethnosectarian geography has 
not yet been, and may never be, completely reversed.
    Ironically, this remapping has all but created the 
tripartite Iraq that American policymakers imagined already 
existed in 2003. In effect, Iraq's new imagined community was 
imagined right here in Washington, DC, and continues to be so 
imagined.
    Now, I'm going to skip a bit that's in the permanent 
testimony, and skip to recommendations.
    So, where do we go from here? Here are some recommendations 
for addressing, ameliorating, and partially reversing the 
troubling legacies of Iraqi-forced migration of recent years, 
starting with IDPs.
    Property adjudication and returnee assistance. For further 
detail, interested parties should examine the outstanding 
special report being issued, just this week, by the U.S. 
Institute of Peace on this issue. According to that report, 
several initiatives might alleviate the problem of property 
adjudication, without which no longer term solution is 
possible. In line with these, I would emphasize the following. 
The Iraqi Government should adjudicate post-2003 property 
disputes with the same bureaucratic zeal and legal priority as 
pre-2003 property disputes. Without such adjudication, return 
cannot be envisioned for hundreds of thousands of Iraqis. 
International actors should provide capacity-building 
assistance to Iraqi Government agents charged with adjudicating 
property disputes originating both before and after 2003. The 
Iraqi Government currently provides return assistance only to 
those displaced between 2006 and 2008. This limitation clearly 
disadvantages those displaced between 2003 and 2006.
    All right, housing, next category. There needs to be a 
radical increase in housing throughout the country to make up 
for over 30 years of postponed construction. A recently 
announced $160 million initiative in four southern provinces is 
a step in the right direction, but there needs to be far more, 
and it should be coordinated with the Ministry of Displacement 
and Migration.
    Elections. The Iraqi Government should ensure that Iraqi 
citizens, wherever they are physically located, have equal 
access to the polls in the elections scheduled later this year. 
If they do not, then the elections will be seen to be as 
tainted, and the future Iraqi Government will lose a great deal 
of legitimacy as a result, which will have knock-on effects on 
stability.
    PDS transferability. The public distribution system cards 
are not currently easily transferrable from government to 
government, which is increasing the burden on those displaced 
internally in Iraq. They should be more freely transferrable.
    There need to be special protections for the 
microminorities that I mentioned earlier. One idea that's been 
floated is a minority security council.
    And then, finally--two final points--for regional forced 
migrants, there needs to be the possibility of look-and-see 
returns, where they can go back to Iraq, see if their situation 
has improved, and go back to the country where they're 
currently resident. That is not currently possible, because of 
the restrictions on crossing borders.
    Finally, there needs to be more emphasis and ability to 
process Iraqis who need third-country resettlement, especially 
in the United States. And once they get here, the support 
programs need to be increased radically, as they were with the 
1970s Southeast Asian refugee assistance programs.
    I'll close my points there. Thank you very much for your 
time.
    [The prepared statement of Mr. Al-Tikriti follows:]

 Prepared Statement of Nabil Al-Tikriti, Ph.D, Assistant Professor of 
       History, University of Mary Washington, Fredericksburg, VA

    Mr. Chairman, I wish to thank the committee for this opportunity to 
testify for the record on the issue of Iraqi sectarianism and forced 
migration, and its effects on Iraq, the Middle East, and the United 
States.
    Commentators frequently affirm that sectarian violence in Iraq 
springs from ``age-old ethnic tensions.'' However, while the relevant 
sectarian identities do date back several centuries, sectarian violence 
has not persisted as a social constant throughout the millenia of 
regional history. Rather, outbreaks of sectarian violence have erupted 
in highly specific occasions, most of which can be explained through 
careful analysis of the particular social stresses at the time. As in 
other societies, when long-term shifts such as dwindling natural 
resources, mass migration, or changes in social identity are inflamed 
by deliberate and short-term policy choices, violence can break out.
    In accordance with this presumption and projection of ``age-old 
ethnic tensions'' is the perception of Iraqi society as little more 
than an unnatural British creation of the early 20th century, held 
together solely by brute force. Those who see Iraq this way also 
envision Iraq as three distinct ethnosectarian regions: a Shi'i Arab 
Southern Iraq, Sunni Arab Central Iraq, and Sunni Kurdish Northern 
Iraq. While this simplified portrayal does bear some general 
resemblance to ethnosectarian reality, it provides insufficient 
contextual information to competently engage with Iraqi society.
    If one must classify Iraq according to ethnosectarian identity, 
then there are far more than the three major ethnosectarian groupings 
frequently mentioned. Sizeable additional groups include the Chaldo-
Assyrian, Turcoman, Jewish, Yazidi, Sabaean-Mandaean, Shabak, Armenian, 
and several smaller groups. In addition to these indigenous categories, 
several Third Country National (TCN) groups, including Palestinians, 
Mujahidin-i Khalq (MEK) Iranians, Iranian Kurds, and guest workers, 
have settled in Iraq over the past several decades, and have found 
their situations deteriorating following the 2003 collapse of the Iraqi 
state.
    Not only are there several minority groups in Iraq, but the three 
largest ethnosectarian groups historically have rarely acted in 
internally coherent fashions. As a result, before 2003, one might more 
usefully have categorized Iraqi society as being divided between:

--Baghdad and the rest of the country;
--Baath Party members and the rest of society;
--Kurdish nationalists and their opponents;
--Communitarian activists and secularists;
--Exiles and residents;
--Tribal confederations;
--Various class actors such as merchants, bureaucrats, peasants, and 
    landowners; and
--Several other categories which no longer carry the same relevance 
    today.

    Rather than recognizing the relevance of such classifications, 
Americans have tended to force Iraq into an artifical tripartite box 
allowing for only Shi'i, Sunni, and Kurdish categories.
    Unfortunately for Iraq, in the wake of the 2003 invasion, 
occupation authorities instituted policies which in their effect--
although usually not in their intent--encouraged an increased 
sectarianism which eventually culminated in the violent geographic 
consolidation of Iraq's ethnosectarian mapping after 2006. Predictably, 
policymakers blamed ``age-old ethnic conflicts'' when sectarian 
violence exploded throughout the country after the February 2006 
Samarra Shrine bombing. Several prominent commentators even argued for 
various forms of tripartite state partition as a solution for this 
violence. While a noticeable shift in U.S. policy in 2007 eventually 
contributed to a calming of the violence, the remapping of Iraq's 
ethnosectarian geography has not yet been--and may never be--reversed. 
Ironically, this remapping has all but created the tripartite Iraq that 
American policymakers imagined already existed in 2003. In effect, 
Iraq's new ``imagined community'' was imagined in Washington, DC--and 
continues to be so imagined.
    The effects of the ethno-sectarian remapping described here are 
widespread, potentially permanent, and highly problematic for the 
cohesion of Iraq's future state and society. Communal consolidation has 
progressed to such an extent that Iraq has already evolved somewhat 
from a mosaic patchwork of geographically mixed sectarian clusters into 
the rough outline of three large regions coinciding with the 
majoritarian ethnosectarian identities of Shi'i Arab, Sunni Arab, and 
Kurdish. Those who either refuse to or are not allowed to fit within 
these majoritarian identities have mostly been forced out, causing:

--The nearly complete erasure of certain microminority communities such 
    as the Sabaean-Mandaeans and Shabak;
--The external migration of roughly half of Iraq's Chaldo-Assyrian 
    Christian populations;
--The entrapment and/or external migration of prominent third country 
    nationals such as the Palestinians, certain Iranian Kurds, and the 
    Mujahidin-i Khalq Iranians;
--The expulsion of minority clusters of majoritarian ethnosectarian 
    groups caught outside of their region of dominance.

    The Government of Iraq announced a major initiative in July 2008 to 
help reverse the ethnosectarian remapping described here. This 
initiative promised incentive packages to return to place of origin, an 
increased emphasis on property rights and protection of returnees, and 
other elements that might promote the reversal of post-2003 forced 
migration. Unfortunately, implementation has remained uneven since this 
initiative's initial announcement. Through today the return of Iraqi 
populations to their pre-2003 place of origin has remained minimal. 
Does this mean we should push for immediate return? Paradoxically, no. 
Displaced Iraqis have quite well-founded fears of return at the moment 
and their returns should not be encouraged before adequate legal 
frameworks to deal with property disputes are in place. The rushing of 
such returns could destabilize Iraq and endanger recent security gains 
if overall political progress has not first been sufficiently achieved.
                        current recommendations
    So, where do we go from here? Here are some recommendations for 
addressing, ameliorating, and partially reversing the most troubling 
legacies of Iraqi forced migration of recent years:
IDPs
--Property Adjudication & Returnee Assistance: For further detail, 
    interested parties should examine the outstanding special report 
    being issued by the U.S. Institute of Peace's Deborah Isser and 
    Peter Van der Auweraert on this issue this week. According to that 
    report, several initiatives might alleviate the problem of property 
    adjudication, without which no longer term solution is possible. In 
    line with these, I would emphasize the following:

  <bullet> The Iraqi Government should adjudicate post-2003 property 
        disputes with the same bureaucratic zeal and legal priority as 
        pre-2003 property disputes. Without such adjudication, return 
        cannot be envisioned for hundreds of thousands of Iraqis.
  <bullet> International actors should provide capacity-building 
        assistance to Iraqi Government agencies charged with 
        adjudicating property disputes originating both before and 
        after 2003.
  <bullet> The Iraqi Government currently provides return assistance 
        only to those displaced between January 1, 2006, and January 1, 
        2008. This limitation clearly disadvantages those displaced 
        between 2003 and 2006.
  <bullet> Property adjudication and returnee assistance initiatives 
        should be implemented within a broader framework of national 
        reconciliation and transitional justice.

--Housing: One of the underlying factors contributing to forced 
    migration in Iraq is a previously unrecognized and acute housing 
    shortage throughout the country. The Government of Iraq--and its 
    supporters--must strive to construct housing throughout the 
    country, in order to catch up with nearly 30 years of postponed 
    construction and ameliorate property pressures which have 
    contributed to sectarian violence in recent years. A newly 
    announced $160 million initiative to construct 5,000 housing units 
    throughout four southern provinces is a step in the right 
    direction. Coordinating such housing initiatives with the Ministry 
    of Displacement and Migration might help alleviate the plight of 
    displaced populations, both in Baghdad and throughout the 
    governorates.
--Elections: Iraqi Government authorities and international support 
    agencies must ensure that all Iraqi citizens are able to vote, 
    regardless of their physical location at the time of the elections 
    scheduled for later this year. If election administration is 
    perceived as rigged against displaced populations (domestic and 
    international), the results are not likely to be perceived as 
    legitimate, which will undermine the future stability and 
    legitimacy of any elected government.
--PDS Transferability: One of the factors causing hardship among 
    displaced Iraqis is the nontransferability of Public Distribution 
    System (PDS) cards between governorates. Such cards should be made 
    freely transferrable between governorates in order to reduce the 
    hardship of vulnerable populations, and contribute to the 
    stabilization of displaced populations.
--Microminority Protections: The ``microminorities'' of Iraq serve as a 
    figural ``canary in the coal mine'' vis-a-vis the maintenance of 
    social stability, individual freedoms, and cultural diversity. If 
    such populations--the Sabaean-Mandaean, Shabak, Chaldo-Assyrian 
    Christian, Yazidi, Turcoman, and others--are secure, then the 
    chances for a stable, diverse, and secure Iraq are greatly 
    increased. In order to bring about such a situation, several 
    recommendations come to mind:

  <bullet> Minority Security Council--such a body should be created and 
        tied directly to the Prime Minister's office. It would provide 
        a voice for minorities close to the center of governance 
        without creating any extraterritorial or sectarianizing 
        expectations on behalf of the body politic.
  <bullet> Concentrate third country resettlement of Sabaean-Mandaeans, 
        so that the cultural continuity of this very small community 
        might be preserved. At this point, the spreading of this 
        community throughout the world threatens their very survival as 
        a communal identity.
  <bullet> Autonomous Zones--such initiatives should not be encouraged, 
        as they encourage the further factionalization of Iraqi 
        politics and would encourage a dangerous backlash from the 
        respective regional majority populations.
Regional Forced Migrants
--Cross-Border Mobility: In order to encourage those who have left Iraq 
    to consider return, the United States should help Jordan and Syria 
    think creatively about a special and temporary status that would 
    allow those Iraqis in those two countries mobility across the 
    border. Such an initiative would allow Iraqis to carry out ``look 
    and see'' visits to their places of origin. At this point, hundreds 
    of thousands of Iraqis in neighboring countries face a ``one way 
    ticket'' back to Iraq--if they can afford to leave at all due to 
    penalties assessed on those who overstay their visas. If such 
    Iraqis return and then discover that their situation is unsafe, 
    they would be effectively trapped as they cannot return to the 
    countries they are currently residing in due to their ad hoc and 
    semilegal status as ``guests.'' In order to ameliorate this 
    situation, neighboring countries--particularly Jordan and Syria--
    must be encouraged to waive visa overstay penalties and allow 
    Iraqis to enter again should they find their return untenable 
    following such a brief visit. If this policy change is not 
    implemented, migrant Iraqis are unlikely to risk return at all, 
    unless they're absolutely sure that the situation in Iraq is better 
    than in their current location--which will not be the case any time 
    soon.
Third Country Resettlement Forced Migration
--Increase in-country processing of asylum seekers in Iraq, Jordan, and 
    Syria. This has been stated several times in recent years, but 
    remains a key need.
--Increase federal support for domestic assistance for asylum seekers, 
    modeled on the 1970s Southeast Asian refugee assistance programs. 
    The United States is directly responsible for the displacement of 
    hundreds of thousands of vulnerable Iraqis--the least we can do as 
    a society is to ease the transition for those fortunate enough to 
    survive the horrendous violence of the past 6 years.

    The forced migration of Iraqis comprises at one and the same time a 
series of individual and communal tragedies, a humanitarian challenge 
in the near term, and a potential security challenge for the future. 
While there is no single ``silver bullet'' which can solve this highly 
complex and contentious set of issues, I hope these strategies might 
serve to address the most troubling aspects of the problem.

    Senator Casey. Thank you very much.
    I wanted to start with a question on the numbers, the 
numbers we've been using, and I want to make sure the record 
reflects any corrections or amendments. We've been using 2.7 
plus 2, so a total of 4.7 million. I'd ask each of our 
witnesses, to the extent they wanted to comment on this, 
whether or not you think those numbers are correct, incorrect, 
in the ballpark. What's your sense of that? It's just one 
metric, but it's important, I think.
    Ms. Laipson. I think, in general, there is a concern that 
these numbers that are the 2-plus-million category of Iraqis 
outside of the borders are probably inflated. I've heard an 
inflation factor of as high as 30 to 40 percent.
    Senator Casey. So, you mean that the 2.7----
    Ms. Laipson. That that number is too high, yes.
    Senator Casey [continuing]. Or the 2 million outside of 
Iraq, that number is inflated or too large.
    Ms. Laipson. Correct, so that--I've heard----
    Senator Casey. How about--I'm sorry.
    Ms. Laipson. So, for example, in Syria we use a figure of 
1.2 million. The UNHCR interacts with a small fraction of that 
population. Some of the people consider--the Syrians consider 
them the guests, the Iraqis may consider themselves to be just 
temporarily resident in Syria and they don't register as 
refugees, so there's no methodology for counting all of them. 
So, let's assume that the number is smaller than over 2 million 
outside of Iraq's borders. But, even if that were true, we are 
still talking about hundreds of thousands of people.
    If we look at UNHCR today, they say about 300,000 Iraqis 
are registered with them, meaning have actually filled out the 
forms to be entitled to certain programs, but UNHCR would not 
assume that that's the total number; that's a portion of the 
total.
    Senator Casey. So, according to what you're saying, the 
number outside of Iraq is too high, possibly--the 2 million. 
What about the 2.7 internally displaced number?
    Ms. Laipson. Others may know more about that. I believe 
that is also--you know it's a very fluid situation, where 
people move temporarily, they move back after, you know, the 
tensions abate a bit. And so, my guess is, that's also on the 
high side, but others may have a more specific view on 
internal.
    Senator Casey. OK.
    Ms. Aossey.
    Ms. Aossey. Yes. It is really extremely difficult to know. 
There are estimates that you can extrapolate from the numbers 
that UNHCR is quoting are consistent with estimates that 
they've made around the world when they have just as little 
information, so if they are inaccurate, they're, relatively 
speaking, probably inaccurate according to other refugee 
situations, as well.
    This one is difficult, especially, as Ellen mentioned, the 
IDPs because there's so much fluid movement. It's really 
difficult to track in real time where people are--they're 
moving back and forth so much.
    Whether or not 4.7 which everyone is using, is the exact 
number--is really difficult to know. It's possibly high. 
Especially because, when you look at the refugees, many of them 
are afraid of being repatriated back into their countries, 
therefore, they're literally in hiding. So, it's difficult to 
tie down. We're using it because we rely pretty much on the 
UNHCR method of estimating these numbers, knowing that they 
might be off.
    Mr. Al-Tikriti. First, a simple answer. The range that I 
have seen in the literature for--globally, that is, within Iraq 
and in the region, as a whole--the low number seems to be 3.8 
million as a total, and the high number sometimes goes up to 
5.2 or 5.5. Ergo, the 4.7 is kind of a golden mean. That's the 
simple answer.
    Explanations as to why this is happening. First of all, 
when you get into the--outside of Iraq--Jordan and Syria see 
this as a sensitive point of their own state security, so they 
are highly resistant to any kind of surveys being done. Now, 
there was one very notable survey done in Jordan, and that 
survey itself was quite a hot potato within Jordanian internal 
politics, and, as a result, they actually had to negotiate what 
the final number was.
    That said, roughly 300,000 refugees have been registered at 
UNHCR in the two countries that are primarily involved here, 
Jordan and Syria, and the estimates for Jordan and Syria are 
750,000 and 2 million.
    Finally, on the IDPs, there seems to be primarily two 
sources, that I'm aware of, that keep getting cited: The 
Ministry of Displacement and Migration, their own sources, and 
IOM, the International Organization for Migration. IOM is cited 
more, and IOM is very confident of its own numbers. And in an 
interview that I had with them in the field, they said that 
they were based on surveys of something like 80 percent of the 
whole population. They're highly confident of their numbers.
    That said, it is a very fluid situation, and categorization 
is a problem, because you don't know whether you're counting an 
IDP from 1987, in the Anfal campaign, whether you're counting 
someone from 1990s, during the sanctions era, you're counting 
someone, 2003 to 2006, 2006 to 2008. And each of these 
categories has highly contentious political and sensitive and 
sectarian overtones.
    Senator Casey. Well, thank you. We'll never know the exact 
number, but at least we're in agreement that there is a 
consensus, at least about a range. I think that's a safe thing 
to say for the record.
    Ms. Aossey, I wanted to make sure that--and I want to make 
sure I'm pronouncing your last name correctly.
    Ms. Aossey. It's ``Aussie,'' like Australia. You are.
    Senator Casey. Like ``Aussie.''
    Ms. Aossey. ``Aussie,'' that's right.
    Senator Casey. ``Aussie,'' not ``Owsie.'' OK, ``Aussie.''
    Ms. Aossey. Yes, sir.
    Senator Casey. Sorry about that.
    Ms. Aossey. No, it's not----
    Senator Casey. I was close.
    Ms. Aossey. Very close, closer than most people get.
    Senator Casey. You had mentioned, in your testimony, the 
Ministry of Displacement and Migration within the Iraqi 
Government. And you said--but I'm not reading from your 
testimony, I'm reading from my notes--that the Ministry doesn't 
have the capacity to deal with that. It's a quick summary of 
what you said. Tell me more about that. What's your sense of 
that? When you say ``doesn't have the capacity,'' does that 
mean--because I think there's some debate about whether it's 
capacity or will, or whether it's capacity or some other 
impediment. What's your sense of that? And define what you mean 
by ``capacity.''
    Ms. Aossey. Our experience with this ministry is that they 
do have the will. We've worked very closely with them, and we 
do believe, through the people that we've worked with in--
within this ministry, that they are very interested in doing 
the right thing by their people.
    The capacity, the best way for me to describe that is 
historically, the Government of Iraq, under Saddam Hussein, was 
very, very centralized. And as a result of that, we haven't 
seen, within Iraq, throughout the country, an ability for 
people within the ministries, to really administer what they're 
faced with. They just literally don't have any historical 
experience with setting up systems, with decisionmaking, with 
delegating, with the kinds of things that one needs in place in 
order to, not only make decisions, but to implement them, to 
make sure services get to where people need them. They just 
don't know how to do it. To some extent, there's some inertia 
too--probably because people are afraid of making mistakes, and 
because they're not accustomed to making decisions, all the way 
down the chain. We have just seen that they don't have the 
mechanisms in place.
    If you look at the GAO report, which cited that only 11 
percent of the Government of Iraq's budget was spent getting 
services to the people--in large part, they don't have the way 
to administer those funds, because they just don't know how to 
do it, whether it be management expertise, as I mentioned 
earlier, or systems.
    We haven't seen where it's a lack of will, we've just seen 
that they don't necessarily have many of the skills that they 
need, and that is where we think they need a lot of support. 
When you think about what it takes to put money out or put 
programs out, or figure out ways to reach people and do the 
right things, there's a whole list of mechanisms that have to 
be set up, and they're not necessarily there. Often people 
don't know how to get that money out the door in the form of 
services where they are needed.
    Senator Casey. So, experience in operating a function of 
government, in essence.
    Ms. Aossey. That's exactly it. It's difficult, obviously, 
for us to imagine that, but the history there is that people 
were not necessarily empowered to do these things. Obviously 
there were a few people at the top who were, but the people 
themselves don't have a history of being empowered to do some 
of the things that we have learned over the years, just because 
we've had the opportunity to do them. Part of that is a 
function of time, but part of that is a function of needing 
support when it comes to setting up those systems. Giving them 
the confidence that they can disburse money, that there can be 
checks and balances, and that the funds and the services will 
get to people, where they need to, without being afraid of 
making decisions, or the wrong decisions. They've never been in 
these situations before, where they had that kind of 
decisionmaking authority.
    Senator Casey. How about other agencies that can work 
together with the Iraqi Government to mitigate the effects of 
the crisis? Any sense of how you think that's going, right now?
    Ms. Aossey. I feel that there are a number of things that 
can be done to ``bolster'' efforts in the future. I mentioned 
earlier the efforts of the United States Agency for 
International Development and the State Department, of U.S. 
OFDA, to bolster civilian capacity. This is very, very 
important, and they do that, working in partnership with groups 
like International Medical Corps, other NGOs, and the U.N., 
helping people through a civilian mechanism, building trust 
within populations and bringing in core technical expertise to 
work side by side with Iraqis, and do the kind of training that 
is needed. A lot of this is management training and 
administrative expertise, and a number of these organizations 
and these funders are accustomed to doing this kind of work 
and, I believe, would be most well-equipped to do it.
    Senator Casey. Doctor, you had----
    Mr. Al-Tikriti. I should just point out that the Ministry 
of Displacement and Migration is a post-2003 creation, in and 
of itself. It was basically written into existence by 
Ambassador Bremer during the CPA era. And as recently as 2007, 
it had a very small budget and very small staff, something in 
the magnitude of a few million dollars and a couple of hundred 
staff members. I think it's been operationalized quite a bit 
since 2007, but that's fairly recent to have been 
operationalized.
    In the old days, their functions would have been shared out 
between the Ministry of Interior and the Iraqi Red Crescent 
Society, both of which still exist and might be able to provide 
some sort of services, but I go beyond what I know, right 
there.
    Senator Casey. I guess the volume, too, is a problem, huh? 
I mean, even if the operational impediments or lack of 
experience weren't an issue, which they are in this instance, I 
guess just the sheer volume, alone, makes it pretty difficult.
    Ms. Laipson.
    Ms. Laipson. I just wanted to add one additional thought, 
which was, as the United States presence gets reconfigured in 
Iraq with the drawdown of United States troops, there is this 
new institution that we've created, called these Provincial 
Reconstruction Teams.
    Senator Casey. Right.
    Ms. Laipson. And for the refugees and the IDPs that return 
to some of the provinces of Iraq, the PRTs themselves could 
become useful supporting-cast players in helping, at the 
provincial level, determine the housing needs of returnees, 
some of the employment opportunities, so that the function of 
the PRTs committed to reconstruction activities, could be very 
relevant and useful, should an important wave of returnees 
occur. That isn't yet happening, so we have not yet seen 
significant numbers of the refugees choosing to return. But 
there is, as we said before, sort of a movement of internally 
displaced that are trying to resume, in some cases, to parts of 
the country where either the housing stock has been degraded, 
destroyed by conflict, or whether other people are living in 
their homes, so that, in terms of housing needs and in other 
infrastructure needs, the PRTs may be able to be important 
players in that.
    Senator Casey. One question that I have had, and others 
have had, is what's happening at the senior levels of the 
government. One of the challenges that we face is determining 
whether, in fact, the Shia--the central government, which has 
Shiites in charge, whether that government's discriminating 
against the displaced Sunni population. I'll go from right to 
left. If you have an opinion on that, what's your sense of 
that?
    Ms. Laipson. Well, it's clear that the politics of Iraq are 
still in some state of agitation and that there's not complete 
mutual trust. I think some of the stories of discrimination 
could be because people are not fully testing the system yet, 
they don't really know whether they should believe that there 
is rule of law, they're not, perhaps, taking advantage of all 
of the legal recourse they have, if they perceive that 
something was--that they were treated unfairly. And I do think 
it's correct to suggest that different parts of Iraqi 
leadership probably have different attitudes about population 
movement issues. I do think that President Talibani, of course, 
who is the Kurd, sees--is very attentive to Iraq's image, 
internationally. He sees, I think, the return of some Iraqi 
refugees as part of Iraq's credibility, as part of Iraq's 
positive image, and as part of the reintegration goal; whereas, 
other political actors, possibly including the Prime Minister 
or some of the ministries, are still enjoying being the ones on 
top, after many years when they were not, and they may be, you 
know, not always signaling as positive an attitude as, perhaps, 
they need to. I don't think the government, in general, has 
made repatriation a high priority. But, I think they look at it 
through different political lenses, and some of the people who 
don't yet trust the new Iraqi Government are not also testing 
the system to find out whether they'll be treated fairly or 
not.
    Senator Casey. Ms. Aossey, you said before, you don't think 
there's a lack of will.
    Ms. Aossey. Absolutely. And I just want to add to something 
that Ellen said. People have networks--their families, their 
friends--living in their communities. They're communicating 
with them back home all the time. We have found, regardless of 
what the government says, they don't feel safe to return home. 
They don't feel that they will have many of the basic things 
they need. But, it first starts with the feeling that safety 
must be something that's durable and not fleeting, even though 
things have stabilized.
    As far as our experience, International Medical Corps has, 
as I mentioned earlier, been working throughout Iraq, and over 
time, has served a population of up to 3 million people, some 
of them displaced inside Iraq and some of them not displaced. 
Generally speaking, it appears to us that people who are Sunni 
have a more difficult time accessing services. That's been our 
general impression. It's hard to explain all the reasons why. 
But our experience is that they do have a more difficult time 
accessing many of the services that they need.
    Senator Casey. That who does?
    Ms. Aossey. Those who are Sunni, versus Shiite. These 
populations seem to struggle more in accessing services that 
they need, but we don't know exactly why that is; we can't 
pinpoint it. It's something that we have noticed. There tends 
to be some trends in that regard. That's a very general 
statement, but it is something that we have noticed.
    Senator Casey. Doctor.
    Mr. Al-Tikriti. Regarding the behavior of the central 
government, I think the record is mixed, but far better than 
their predecessors, under Ibrahim al-Jaafari. And I also think 
that it behaves more like a classic Iraqi central government 
than a simply sectarian government, so they have a lot of 
parallels with any Iraqi central government through the ages.
    That said, here are some examples where they either have or 
have not acted in a sectarian fashion. There are several.
    They acted against rival Shiite factions in Basra a year 
ago, which was seen as a positive nonsectarian action. On the 
other hand, just this past weekend, they acted against Sons of 
Iraq militia factions in Fadhil neighborhood, and may have set 
off the beginnings of a civil uprising in Baghdad. That's a 
negative.
    They have not extended assistance to those displaced during 
2003 to 2006. They've accepted them, from the categories of 
those getting assistance, according to the USIP report, right 
here. And most of those are--can be seen as Sunnis, minorities, 
and professionals. So, there is a sectarian element to that, 
potentially.
    Their housing initiative, that I mentioned in my testimony, 
started in the south. Najaf is attracting a lot more resources 
than other parts of the country, like a brand new airport, for 
example. That's tied to the pilgrimage traffic.
    There's anecdotal evidence, or not even evidence--rumor, I 
would characterize it--that the east Baghdad field offices of 
the Ministry of Displacement and Migration are functioning 
better than the west Baghdad. Again, that's a rumor, but if 
it's accurate, that could have a sectarian bent to it.
    And finally, the Kurds are quite worried about developments 
in the disputed territories; namely, Kirkuk, Diyala, and 
Ninawa. So, there's a rising Kurdish-Arab tension happening 
right now, as well.
    So, those are--it's mixed. It's a mixed--it's a mixed 
record, and I think, again, they act more like a central 
government than they do a sectarian government, most of the 
time.
    Senator Casey. Doctor, I want to ask you a more blunt 
question, I guess. Is it your sense, or do you have any reason 
to believe, that Prime Minister al-Maliki is actively 
inhibiting the return of refugees who happen to be Sunni?
    Mr. Al-Tikriti. No. I do not believe that. I do believe, 
however--and I think there's a lot of evidence to back this 
up--that those who are displaced do not trust al-Maliki. Now, 
where blame lies in that, I cannot venture to guess. But, for 
example, in October 2008 in Syria----
    Senator Casey. So, you mean it could be on their end of 
the--the refugee--you're saying that the refugees may be----
    Mr. Al-Tikriti. There's a lot of bad blood----
    Senator Casey [continuing]. Reluctant to----
    Mr. Al-Tikriti. There's a lot of bad blood--sorry----
    Senator Casey. Yes.
    Mr. Al-Tikriti. There's a lot of bad blood, because of the 
developments, particularly of 2006 to 2008--or, rather, 2006-
2007, as well as what went on back in the1980s and 1990s. So, I 
mean, there's the flip side of it, as well. I don't know that 
any particular group's hands are clean, and I don't know who is 
being more distrustful, but there's definitely a logjam afoot 
right now.
    Senator Casey. I think it's--look, and I think this is an 
important point and sometimes at hearings we don't have the 
record very clear. I'm not trying to start a fight, here, but I 
think it's important for--as best we can, for witnesses to be 
able to state clearly how they perceive the situation, and I 
appreciate your candor on that.
    I wanted to move to another area of questioning more having 
to do with resources and what's happening on the ground.
    Our Government, as you know, is providing substantial help, 
here. The Obama administration has committed about $150 million 
to assist displaced Iraqis in this current fiscal year, 2009. 
Our Government is committing almost $100 million to UNHCR, and 
several million to both the World Food Programme and the World 
Health Organization. It seems as though the administration is 
attempting to tackle several important issues simultaneously.
    And I guess, Ms. Aossey, I wanted to ask you from the 
perspective of an organization that benefits from USAID 
funding, do you believe the United States is providing adequate 
resources to NGOs and international organizations with a 
presence in Iraq?
    Ms. Aossey. I think additional resources are needed, less 
for infrastructure, which has been, historically, the case, and 
more to do the things that USAID and the State Department have 
known all along were important, and that is to build the 
capacity of the people. A lot of the focus in the past--and, 
understandably, when you look at the funds that have flowed to 
Iraq--has been on the infrastructure. I really believe that 
they are correct in wanting to focus on building, within the 
ministries, the people, the skills. As important as 
infrastructure is, there's only so much that can be done. 
People in key ministries basically are not really familiar with 
how to administer a budget, when you look at this kind of 
central authority. It's more this than it is intent or 
discrimination or bad will toward anybody. It's the lack of 
their ability to administer what is required. I think that 
resources to help USAID and the Department of State do that, 
working with partners like my organization and others, is an 
important step forward.
    Senator Casey. I'm not sure I understand the difference. 
Explain to me what you mean by ``infrastructure'' versus 
spending in other areas.
    Ms. Aossey. Hardscape kinds of projects, things that are 
important--buildings, et cetera.
    Senator Casey. Right.
    Ms. Aossey. They're important, but, at the end of the day, 
the people who have to then turn around and administer services 
or, negotiate property rights or set up judicial systems so 
that many of these property disputes can be resolved, figure 
out how to get health services and education back into the 
population--the skill set doesn't seem to be there.
    Senator Casey. So, training becomes a priority of----
    Ms. Aossey. Training becomes the priority. If you look at 
many of the refugees, safety is No. 1. But, as bad as things 
are where they may be, if they don't think that they can come 
back and have a place to live, because their house has been 
taken over by someone else and they have no way to get that 
house back, or to get health care, or to send their children to 
school--as bad as it may be, they at least may feel it's not as 
bad as going back. Right now the Iraqi Government makes 
payments to people when they come back. They're able to make 
one-time payments, and there are incentives to have people, in 
homes, leave homes that do not belong to them. So, there has 
been some of this.
    But, it's difficult for them to do anything beyond these 
one-time payments. It's very much payment-driven, and, beyond 
the disbursement of payments when people repatriate back, they 
just don't seem to have the skill set that is needed to set up 
things that go way beyond that.
    There's a host of things that we've talked about; basic 
services, property rights--that we've already discussed, where 
people think they have something that they can return to--
because it's very difficult, when they're hearing, from people 
within their communities, there are no jobs. That's a key 
piece. If there's no jobs--even if it is safe to return, or 
they perceive it as safe to return--if they can't get a job, 
don't have a place to live, let alone health and education, 
they don't feel a large incentive to come back. And I think 
that's one of the main reasons we haven't seen people coming 
back.
    Certainly, stability is better, and hopefully, over time 
it's sustainable. There's no question about that, that it's 
much safer today. But, all these other things also have to be 
in place for people to feel that they can improve their 
situation, beyond where they already are.
    Senator Casey. I want to give our two other witnesses a 
chance, if you have anything to add on that question, about 
resources or how the dollars are spent. Either of you?
    Ms. Laipson. Well, we might want to make a distinction 
between activities inside Iraq--and Iraq, after all, is 
potentially a very wealthy country, a country that should be 
able to finance, over time, most, if not all, of its 
reconstruction, versus, kind of, temporary services that are 
needed to the Iraqis outside of the country. So, I think the 
United States contributions to some of the U.N. agencies that 
are really serving this population outside of Iraq is where the 
most immediate need probably is. And there, I think the U.N. 
agencies would say they could always use more. But, the United 
States is not the only donor; we are the largest donor, but 
we're not the--part of the goal here is to make sure that other 
countries also make contributions.
    Senator Casey. Unless you had something, Doctor----
    Mr. Al-Tikriti. Well, just that the amount that has been 
pledged, $160 million recently, is not so greatly different 
than what it was in the last couple of fiscal years. And I've 
heard two very different critiques of this.
    One is that, on this grand scale of things, $160 million is 
really a small amount of money, especially compared to the 
figures that are being thrown around for other issues in 
governance these days. That's one critique.
    Another is that much of the international community feels 
that this is primarily a U.S. crisis, and the United States 
should be primarily involved in dealing with it. And the U.S. 
response to date has been, as I understand it, to pretty much 
stick with the global formulas for international donations; in 
other words, something like one-quarter of U.N. funding. And 
the other part of the critique says, no, the United States, 
this time, should pay more.
    Countering that is the one critique that I've heard from an 
NGO professional in the field, saying that they were a little 
bit skeptical that if more money, just more money were thrown 
out there, that they would really be able to use it all that 
well. That was just one NGO professional who stated that, not 
all the others. And that was a little bit of a, you could 
almost say, heretical viewpoint within the NGO community, but I 
did hear at least one say that.
    Senator Casey. Yes.
    Ms. Aossey. May I just add--I think that a lot of that 
comes back to the capacity of the Government of Iraq to 
administer. And if there was, say, a master plan that the 
Government of Iraq had to deal with all these things, where 
other donors outside the United States, as well, had confidence 
that there was some kind of a plan to actually tackle a whole 
host of these issues, then I think people would want to 
participate and they would want to support the ministries in 
doing what needs to be done.
    The Government of Iraq has resources, too. And, as the GAO 
report pointed out, a lot of those resources could certainly be 
brought to bear. I think that, in many ways, they're not using 
all their own resources, just for the reasons we talked about 
before. I don't think that they really know how to administer 
many of the things that are needed. Others would step in and 
help them, if there was some kind of a plan or package of 
support where others could plug into.
    Senator Casey. I wanted to move to the security issue, 
which each of you have mentioned more than once, I think. But, 
before I get to that, I wanted to ask you about children.
    If we look at this problem just through the eyes of a child 
or from the vantage point of what happens to a child in this 
process, not just whether or not they're provided with the 
services and the opportunity that they should be provided with, 
but whether or not those opportunities and services and help 
are being provided to such an extent that it will dissuade or 
create a disincentive for a child or someone coming of age to 
be attracted to an ideology which is harmful, what's your sense 
of how children are faring in this process, both from a 
mechanical point of view, in terms of what services they're 
getting, but also from a more--I'm not sure how best to express 
it, but from a broader view, in terms of whether or not we're 
doing enough to dissuade them from being attracted to some 
extremist ideology because of the lack of services?
    Ms. Laipson. I visited some Iraqi refugees in Syria, and I 
know that there is a deep concern, not so much very young 
children, but teenagers that are idle all the time, and whether 
there are opportunities for them to have outside activities 
that are healthy ones, whether it's sports or educational 
opportunities, after-school--some of them don't go to school at 
all. And----
    Senator Casey. You mean, Iraqi teenagers in Syria.
    Ms. Laipson. In Syria----
    Senator Casey. OK.
    Ms. Laipson [continuing]. With nothing to do. And--now, in 
Syria it's a somewhat controlled environment. There are not 
many opportunities to join a jihadi club or something that 
would be promoting an ideology that could be dangerous. But, 
there is always the concern that this long period of isolation, 
the family has experienced a great drop in its socioeconomic 
status, et cetera. Now--so, the question is--opportunity. I 
think that, in a way, the environment is something one should 
be concerned about.
    That's not something that the United States can necessarily 
direct by itself. In the case of Syria, the Syrian state also 
worries about not allowing its own citizens to be exposed to 
either religiously motivated or ideologically motivated 
activities. It's quite adamant about secularism. But, I think, 
in some of the other countries, that would be a concern.
    In Lebanon, for example, the Iraqi refugees have somewhat 
left--been left to their own devices and have been allowed to 
create community associations so they can try to inculcate 
Iraqi identity, Iraqi songs, activities, et cetera, that at 
least hold on to some Iraqi culture. But, they are also in an 
environment where there's a great diversity of political views, 
in Lebanon, so they could be exposed.
    In Egypt, they could also be exposed, I think, to a wide 
range of political activities.
    Ms. Aossey. Certainly, in both refugee populations and IDP 
populations, children suffer disproportionally. And if I could 
add, women and children. One of the troubling things that we 
see is that a number of families are struggling because they 
are now female-headed households. Women, as a result of that, 
face greater isolation than the family would otherwise. 
Children living in poverty, for a whole host of reasons, is 
always a bad situation. And certainly, they are more 
vulnerable, more fragile.
    There's a number of psychosocial interventions that are 
happening both within the refugee populations and within the 
IDP populations. I cannot overemphasize enough how important 
these programs are, because in addition to the fact that 
children lack access to basic health care and education and the 
kinds of things that a child needs to develop and thrive and be 
healthy, they also don't always have an outlet to express many 
of the things that they've seen, their fears, and the kinds of 
things that they have to come to terms with, just as children. 
It's often too much for an adult to cope with these kinds of 
things, let alone a child.
    Many times we have found that, by working with the mothers 
and the women in these families, we're able to improve the lot 
for the children, by working with the mothers, because as we 
know, children, in large part, react to how their parents are 
doing. Regardless of what's happening in their world, what they 
form a lot of their opinions and draw a lot of their securities 
or insecurities from is based on their parents. Often by trying 
to take care of the family, by trying to take care of the 
father and the mother, you can then often best take care of the 
child.
    If you don't help the mother and the father, if they are 
unemployed, if they are deprived, if they are isolated, if they 
are afraid, then, chances are, so are the children. That's been 
our experience, over and over again, not just here, but 
throughout the world. That concern is a major concern, and it's 
something that we are seeing on all sides of the borders.
    Mr. Al-Tikriti. Although it's a legitimate concern of the 
U.S. Government, I'm personally uncomfortable with the paradigm 
of youth as a security threat, if, for no other reason, than 
you can create a surreal negative incentive, whereby you'll 
have children say, ``Educate me or I'll blow up a hotel.''
    That said, rather, we should see these individuals, both as 
individuals deserving the full menu of life's opportunities, 
but second, as factors in the region's future positive economic 
and social development. So, as such, I think Jordan and Syria, 
in particular, should be given cart blanche, in terms of 
support, for educating Iraqis amongst their population. There 
will be leakages. They will use this money to educate Syrians 
and Jordanians, but there are many who say that's not 
necessarily a bad thing. In fact, that's not a bad thing at 
all.
    Senator Casey. Before turning to my colleague, I have just 
a real quick question on the number. If we're operating from 
that 4.7 million number, do you have any sense, or is there any 
estimate, as to the number of children that comprise that? What 
percent of the 4.7 million are children? Does anyone have a 
rough estimate on that?
    Mr. Al-Tikriti. I don't have a rough estimate, although 
someone here might, but just that it's higher than it normally 
would be, because these are survivors of a war zone.
    Ms. Aossey. We know that women and children account for 75 
percent, give or take.
    Senator Casey. Seventy-five.
    Ms. Aossey. Yes; 75 percent. And it's possible that, of the 
overall numbers, children account for possibly more than half 
of that number, give or take.
    Senator Casey. That's a big number.
    I wanted to turn to my distinguished colleague, the ranking 
member, Senator Risch.
    Senator Risch. Thank you, I'll pass, Mr. Chairman. Let's 
continue on with the list.
    Senator Casey. I've been----
    [Laughter.]
    Senator Casey [continuing]. Given unlimited time, here. 
There's probably some people who want me to turn it over to 
you. [Laughter.]
    If you wanted to match my time, you get about half an hour. 
[Laughter.]
    Let me just ask one or two more.
    One real concern that people have here, as well as in other 
parts of the world, is just the stability and security, 
generally, but, in particular, how this crisis--and there's no 
better way to describe it than that word--how it affects, among 
other challenges, the Middle East itself, and the potential 
destabilizing effect that the crisis has on the Middle East. I 
mean, we know some of the larger numbers in Syria and Jordan. I 
was in Jordan, in August 2007, and we heard an awful lot, at 
that time, about the challenge of dealing with this inflow. One 
official extrapolating--and I think, appropriately so--
extrapolating from--the inflow of Iraqi refugees into Jordan 
would be the equivalent of us having hundreds of thousands--I 
think it was more than 500,000 refugees coming to the United 
States----
    Mr. Al-Tikriti. Try 10 million.
    Senator Casey [continuing]. Which--well, depending on how 
you count it--but, this was--this was extraordinary. So, do you 
have any sense of that, in terms of the impact it can have on 
the region, in terms of stability? Anyone have an opinion on 
that?
    Ms. Laipson. I think if we look at the smaller regional 
states, Jordan and Lebanon, for example, would be one scenario, 
and I think Syria and Egypt would be a different one. Both 
Jordan and Lebanon, I think, are deeply, deeply nervous about 
any transfer of, sort of, some of Iraq's political problems to 
their own societies, so they worry about rising sectarian 
consciousness, they worry about some of these Iraqis being 
``bad guys.'' And certainly, within refugee populations, you 
have your normal spectrum of human behavior, and you're going 
to get some who don't respect the law, bring in some political 
views that may not be congenial to the host governments, et 
cetera.
    For the most part, those anxieties were most acute, I 
think, in 2006 and 2007. And, in a strange way, the countries 
in the region have more or--I feel that the temperature is down 
a little bit, in terms of how anxious they are that these 
Iraqis are going to really disrupt life, as they know it, in 
their home country. They are a little bit more focused on their 
economic requirements than on the security question, per se; in 
part, because the Iraqis are somewhat docile, and they're 
nervous, and they are--the Iraqis are preoccupied with just 
day-to-day survival and really have not become very politically 
active. But, again, I think it's important that both Jordan and 
Lebanon have--feel deeply scarred by the experience of 
absorbing, or failing to absorb, such large cohorts of 
Palestinians, and they really don't want to see it happen to 
them again.
    Syria has taken a somewhat more relaxed view, for reasons 
that are not completely clear. Syria has always had a testy 
relationship with Iraq under Saddam Hussein, and yet, it 
considers Iraq a brother country and has been quite generous, 
at the social level, in allowing the Iraqis to kind of settle 
where they want, to find homes, et cetera.
    In Egypt, the numbers are much, much smaller, and the 
Iraqis really don't stand out as such a significant refugee 
cohort, when you compare them to the Sudanese or other refugee 
groups that are currently resident in Egypt.
    So, I think that there was an initial worry that some of 
Iraq's, sort of, social strife and deep divisions would somehow 
be transferred to these neighboring countries, and that they 
would also almost be infected, if you will, by sectarianism. 
And it seems that the worst fears have not played out and that 
there has been some tolerance. Now, that tolerance may be based 
on an assumption that, when conditions improve, the Iraqis will 
go home. The long-term absorption of these Iraqis is really 
something that I don't think Syria and Jordan have completely 
come to terms with.
    Senator Casey. How about with regard to what our 
Government's doing, vis-a-vis Syria? Is there more that we 
should be doing, in terms of any kind of new strategy or new 
initiative with regard to Syria? I mean, they've got very high 
numbers, and--I don't know if you have a sense of that.
    Ms. Laipson. Well, the Syrians certainly want to manage how 
international NGOs are playing, vis-a-vis the Iraqis, but it's 
possible that there is--that they would be receptive to greater 
support for those activities.
    What I found interesting was that the Syrians were a little 
bit frustrated that they have not been able to do business with 
Iraq. They believe that the long period of American disapproval 
of Syria has inhibited them from being kind of a more natural 
economic partner of Iraq. So, joint ventures, business 
opportunities, Syrian investment in Iraq, et cetera, which 
could help Iraqi reconstruction and could, in theory, on the 
margins at least, improve the chances for Iraqis to go home, 
have not been exploited, have not been developed. So, the 
Syrians would argue that if the United States were to create a 
more conducive environment, you could get more natural economic 
interaction between Syria and Iraq that would help the Iraqi 
displaced people, as well.
    So, one intervention, perhaps in the context of an overall 
improvement in United States-Syrian relations, would be 
something that would clarify the status of Syrian businessmen, 
Syrian investors, in the Iraqi economy.
    The Iraqi business partners suggest that they don't want to 
do business with Syrians, because they think Syrians are 
somehow disapproved by Washington, so it's not worth--if they 
were to bump into sanctions, for example. Now, the reason for 
those sanctions are--is a different set of issues, and it's 
possible that those sanctions cannot be lifted very, very 
quickly, but that's something that at least the Syrians believe 
would improve their ability to help Iraq.
    Senator Casey. Ms. Aossey.
    Ms. Aossey. If you look at Jordan, Syria, and Lebanon, 
generally speaking, I think they've done, overall, a pretty 
good job of accepting large numbers into their populations when 
their populations are already in need of many of the kinds of 
services that these refugees also need. Although, of course, 
rights have been limited, and certainly the right to work is 
limited, many of these refugees have had access to what is 
already a very, very strained system within these countries.
    I can't think of many countries that want a refugee 
population in their country permanently. And, as mentioned 
before, many of them are still struggling with the issue of the 
Palestinian refugees within their own communities since 1948.
    Also, there is a general concern even though the tension is 
significantly decreased, as Ellen mentioned, there is a general 
concern about how the influx of these refugees affect the 
religious balance within their countries, and what that may 
mean within each particular country. So, there has been concern 
about that, although it seems to be less.
    I think, in large part, one of the ways that there has been 
less tension among these host communities, between the refugee 
population and the population of these countries, is that, 
because the refugees are not allowed to work, they can't take 
jobs that would go to someone who lives in that country. It's 
difficult for the refugees, of course, but to some extent, 
there is a little less tension because they're not taking local 
jobs away from the economy.
    Just a comment on Syria. It's been our experience, in 
working, in the last couple of years, with the Syrian Arab Red 
Crescent and a number of other such institutions, that there 
seems to be an opening up of the regime, and we should try and 
embrace that openness. Perhaps this issue of refugees in their 
country is a way to have a dialogue about that.
    Refugees within Syria have had access to a lot of basic 
services. Certainly we never want to create reasons for people 
to go back home, except for reasons that are, of course, very 
positive. If people had a good reason to go home, we think many 
of them would. It's not because life is easy in Syria, but that 
they do have access to basic services, so if they do go home, 
it would be voluntary in nature.
    Senator Casey. Well, I know--moving to a different topic, 
because I know we have to wrap up soon, but--even as we point 
to what the Iraqi Government's doing or not doing well, or 
other governments, we have to look inward, as well. What is our 
Government doing? And we spoke a little bit about the dollar 
amounts, but the concern that I have--and a lot of people have 
this concern--and Senator Cardin--Senator Ben Cardin, from 
Maryland, and I expressed this to the President, when he was 
President-elect, in a letter about the need for someone in the 
White House to be able to coordinate, in terms of the 
interagency interaction. That's my sense of it, and I'd be 
curious to see what our witnesses think, whether or not the 
administration--our administration here--should appoint a 
special coordinator for Iraqi refugees and internally displaced 
persons. Do you have any opinion on that? If you disagree, 
you're not going to offend me. This is an open forum.
    Mr. Al-Tikriti. I look positively toward that idea. Up 
until now, as I understand it, there's been--the lead, 
internationally, has been BPRM, over in the State Department, 
but they have been unable to speed the process, in Homeland 
Security, for getting third-country resettlement asylum-seekers 
into the United States, and they've had no traction whatsoever, 
in terms of what happens to those asylum-seekers once they get 
to the United States. So, you've effectively got three 
different sets of bureaucracies, and they're not coordinating 
very well at all, from what I've read and come to understand.
    So, if someone were somehow coordinating those three 
different sets of bureaucracies, it would be a great advance 
over what it has been, up until now.
    And the other thing I want to emphasize is, again, what I 
mentioned earlier in the testimony, namely that there should be 
a great deal--a great increase in resources allotted for those 
who do manage to get to the United States, because these--the 
benefits--``benefits'' is, maybe, a dicey word to use there--
but, the support, the assistance that they've been getting once 
they reach the United States has been allowed to wither ever 
since the 1990s, and, as a result, they really are only getting 
something like a few weeks' support and then they're on their 
own. And, as anyone can testify in the United States, without 
health insurance and a steady job, life can be very difficult. 
And if you don't know all that solid a grasp of English, then 
it's even more difficult.
    Senator Casey. I wanted to ask--Ms. Laipson, your long 
experience in government; you know more than just the theory of 
it, the practice of how it actually works. What's your sense of 
this question, as to whether or not to have a special 
coordinator in the White House?
    Ms. Laipson. Well, I find myself a little bit conflicted. 
I'm not sure that special coordinators and creating, kind of, 
more processes that these dense bureaucracies, you know, 
already resist a bit, is necessarily the solution. But, I liked 
very much Nabil's description, that--my understanding is that 
the Iraqis--to get an Iraqi process to come into the United 
States is mindbogglingly complex, that they--there's almost a 
Catch 22, when they're outside the United States, of how they 
qualify; once they qualify, they have to start all over again 
with a different process, et cetera.
    I'm not sure that a czar in the White House can break 
through all of that, and I don't know whether there's a 
legislative remedy to trying to streamline the process, not 
just for Iraqis, but for any other asylum-seekers and refugees. 
I do think this is a moment where our post-9/11 system gets in 
the way of some of our other foreign policy goals, and I don't 
know whether there's an opportunity here--again, not just for 
the Iraqis, but for others, as well--to clean up a system that 
may be unnecessarily slow and complex.
    So, I'd put it in a--in kind of a larger question. I 
personally would rather see, you know, the Department of 
Homeland Security need to demonstrate a willingness to come up 
with more efficient processes. Someone sitting in the White 
House, maybe would add value, but not necessarily.
    Ms. Aossey. I think it would show the extraordinary 
importance of this. Whether or not it would get muddled in the 
bureaucratic process is difficult to know, but I think that the 
issues are so important, so large and so looming that I think 
it would be a good idea, in large part, because it would be 
someone's only job. Probably the best way to look at it is, 
they have a lens into what all the different issues are, across 
the board, they would, from that perspective, be able to solve 
some of the issues. They're not solved necessarily, because no 
one single person is doing this across all agencies.
    Mr. Al-Tikriti. May I have a follow-on, on that?
    Senator Casey. Sure.
    Mr. Al-Tikriti. This is a personal anecdote, as a New 
Orleans native. Growing up in New Orleans in the 1970s, there 
was a very large Vietnamese community that were overwhelmingly 
refugees from the Southeast Asia conflict of the 1960s and 
1970s. When they came to the United States, they had the kind 
of support that allowed them to work at the local supermarket, 
and half of their salaries, as I understand it, were paid for 
by the Federal Government. The supermarket cut its payroll in 
half, they got minimum-wage jobs; these jobs went on for years. 
And their children are doing quite well, as I understand it, 
including the most recent Republican Representative from 
District 2 in New Orleans. And that is a anecdote, that is an 
example, of what can happen, a generation after these asylum-
seekers are accepted into the American immigrant mix.
    Senator Casey. Well, thank you. And I wanted to--I know we 
have to conclude, but--wanted to get your sense of how we're 
doing with regard to resettlement of Iraqi refugees, in 
general, but, in particular, whether or not we're doing enough 
to resettle Iraqis who supported the United States mission 
since the war began, as well as oppressed minorities, like 
Iraqi Christians, here in the United States.
    Ms. Laipson. I think we're doing poorly, across the board. 
I think the numbers aren't big enough, and, I think, once they 
get here, the programs aren't generous enough, as Nabil 
explained.
    I take the notion that we should be particularly sensitive 
to the most vulnerable populations. I hope that that definition 
of ``vulnerable'' is inclusive enough so that it's a mix of 
vulnerabilities, not just focused on what they call the 
``American-affiliated Iraqis''--the translators, et cetera. I 
hope that it would be more than one definition of ``vulnerable 
population.'' But, the numbers are just, I think, exceedingly 
small, given the scale of the people that could qualify to be 
``vulnerable.''
    Mr. Al-Tikriti. And I would agree with that. I think that 
any sectarian definition of those who get preference--in other 
words, saving Iraqi Christians because they're Iraqi 
Christians--would be a very big mistake, if only for Iraqi 
sectarian politics back there, as well as in the Middle East, 
as a whole.
    On the other hand, I can see an argument for supporting 
those who--as a special category--who helped the American 
venture in the last 6 years, because they did put their life on 
the lines for this adventure, whatever you think of it.
    Ms. Aossey. If I could make one more comment about this 
coordinating mechanism, I've had an opportunity to think a 
little bit more about it. And certainly resettlement issues 
would be a part of that. But, if you look at the past, the lead 
for the refugees has been PRM at the State Department. And the 
lead for the internally displaced has been USAID's OFDA. And 
these two organizations, we are a partner of them and we know 
them well, have really done an extraordinary job under very 
difficult and challenging--very, very difficult situations.
    But, there needs to be, in addition to that, overall 
leadership at the highest level that looks at all these issues 
together, including the resettlement issue, which is, of 
course, politically charged in so many ways. This challenge is 
a big one, and has tremendous implications, both in the 
neighboring countries and our own country and within Iraq. And 
if there's someone at the senior level who is able to work with 
people who have been focused on it over the years, look at it 
at a broader level, I think these issues, including the 
resettlement issues, that we're obviously struggling with, 
would be best looked at. It's not because I think the solutions 
are easy, it's because someone at a very high level would be 
looking at them all the time and across the board. And 
certainly, that includes the resettlement, as well.
    Senator Casey. I forgot to ask one question I was thinking 
of earlier. The Provincial Reconstruction Teams--as our troop 
presence is diminished and as we drawdown, I'd ask you whether 
or not you think the PRT's role has to be augmented because of 
that. Is there a general consensus on that, or not?
    Anyone. This is----
    Ms. Laipson. Yes; I personally think the PRTs will continue 
to have a very important role, and perhaps even an enhanced 
role, in this period of transition. Eventually, though, if we 
imagine, kind of, at the 5-year mark or beyond, a more normal 
relationship with Iraq, I don't know what--whether Iraq will, 
you know, either want, or we will give priority to, having such 
a robust presence at the provincial level.
    We have this enormous Embassy in Baghdad that is perhaps 
too big for where the relationship will be, 3 years from now, 5 
years from now. The PRTs are a very--you know, are an 
interesting experiment, and it's really to--in my mind, a 
transitional concept.
    Eventually, when Iraq is stable, we would have normal 
consulates. But, when we think about the role of diplomats in 
the 21st century, we know that there will be a kind of 
different skill mix, and, in a way, PRTs are a pioneering 
effort to see what, kind of, different professions and 
different, kind of, functional backgrounds are needed in our 
civilian corps when we deploy, internationally. So, we want 
water engineers and we want legal experts and we want people of 
very different professional training.
    And so, in a way, the PRTs are a very important experiment 
that perhaps will become institutionalized and become a 
permanent way we do business overseas. But, overall, I think 
that we should think of it, still, as a transition for Iraq, 
and eventually our diplomatic posture in Iraq may look 
different.
    Senator Casey. Anyone else, before we wrap up?
    Ms. Aossey. I think----
    Mr. Al-Tikriti. Go ahead.
    Ms. Aossey. The feelings toward the PRTs among the 
communities in Iraq vary from place to place, depending on what 
their relationship with them is. I'm a strong proponent of more 
being done at the civilian level--because civilian 
organizations, international organizations, NGOs, the U.N.--are 
used to working at the grassroots level with communities, and 
winning their trust. I think that's going to be very important 
in Iraq as we go forward. I think that much more needs to be 
done through civilian organizations. In that regard, it is a 
transition, and things have changed. There is much more of a 
role for civilians, whether it be organizations or the U.S. 
Government or the international community in general, because 
they are used to working within communities. They've been doing 
this for years and years, around the world. And they've done it 
very effectively, and in so many other places. I believe much 
more of that can be done in Iraq than has been done in the 
past.
    Mr. Al-Tikriti. I would agree with everything that's been 
said. I just have one caveat. And I--that is, that I would hope 
that the PRTs' presence throughout the country, throughout the 
provincial capitals, would not later be used as a reason to 
maintain a security presence, a military presence, in order to 
protect the PRTs. In other words, sort of a reverse tail-
wagging-the-dog kind of scenario. So, while I agree that their 
role probably should, and could be, and will be, enhanced, I 
don't think that should be a reason to keep a military presence 
there to protect them.
    Senator Casey. Before we leave, I wanted to give each of 
you--you have written testimony, you've given oral testimony, 
but just give you, maybe, 30 seconds each to do a kind of an 
exclamation point. What's your most important message you want 
to leave with us, so the record is crystal clear why you showed 
up here? [Laughter.]
    Ms. Laipson. Well, I think the refugee story is a very 
important test of American leadership and how we bring this 
extraordinary period of our--of Iraq policy to some kind of 
closure. So, I would like the United States to pay more 
attention to the refugees.
    Having said that, I want to think about the refugee problem 
in a very holistic way, and that really the solution to the 
refugee problem is organically linked to achieving some of the 
basics in Iraq, so that when Iraq is more stable, people will 
choose to return. So, I don't want to kind of put the refugee 
question under a microscope and say that that should be issue 
No. 1; I want to see it in the context of the United States 
remaining engaged in Iraq, at least for some period, until Iraq 
achieves stability. And then, I think there will be some 
natural resolution to at least part of the refugee problem.
    Thank you.
    Senator Casey. Thank you.
    Ms. Aossey. I think it's important that we take the hard-
won gains and the progress that's been made over the last years 
and keep things progressing, that we don't actually backtrack. 
That is, we cannot rush the return of the refugees, or rush the 
return of the IDPs, beyond a point where they're not 
comfortable. It needs to be voluntary. People need to be safe, 
and they need to feel that they want to be back in their 
societies for there to be long-term and durable hope in Iraq.
    I believe that this should be civilian-led. I think that 
working with the communities at the civilian level will have 
the most impact over the long run in Iraq in building those 
relationships. And that we, both the U.S. Government and the 
international community, should help the Government of Iraq to 
carry this out; that they need help with the master plan; that 
they do have the will to do it, but they don't have the 
capacity. A civilian-led effort to help them do that will be 
the most effective and, over the long run, will help with our 
relationships within communities throughout the country.
    Senator Casey. Thank you.
    Mr. Al-Tikriti. Thank you for this opportunity.
    Rather than restate some of what I've said before, I want 
to close on a slightly different point, and that is, I think 
the focus should be on the most vulnerable populations; and it 
hasn't always been, up until now. And I want to mention three 
particular populations, that haven't necessarily been mentioned 
yet today, quickly.
    One, the Palestinian refugees in Iraq are effectively 
trapped; 2,500 of them on camps on the border. They need to go 
somewhere, and they're stuck, for the last 6 years, 
effectively. That's one group.
    Another group are the Sabaean-Mandaeans, who have 
effectively ceased to exist as a community in Iraq. There's 
less than 10,000 of them now. They've been dispersed all over 
the world, and they are of such numbers, as a community, that 
their communal identity is in danger of fading as they spread 
to Australia, Europe, and the United States.
    And the third one are the Mujahidin-i Khalq Iranians in 
Camp Asraf, who have a long and difficult history in Iraq, 
obviously. They are not immediately vulnerable, but if things, 
politically, go a certain way and the United States withdraws, 
they could find themselves suddenly extremely, extremely 
vulnerable. So, it's not a case of vulnerability right now, 
it's a case of potential vulnerability in the future.
    Once again, thank you for allowing me to testify.
    Senator Casey. Thank you very much. And this is very 
helpful, and we'll make sure that all of your testimony is a 
part of the record.
    We're adjourned.
    [Whereupon, at 5:06 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Joint Prepared Statement of Kenneth H. Bacon, President, and Kristele 
    Younes, Senior Advocate, Refugees International, Washington, DC

    Thank you, Senator Casey, for holding this hearing today. As 
President Obama noted in his February 27 speech on responsibly ending 
the war in Iraq, ``millions of displaced Iraqis . . . are a living 
consequence of this war and a challenge to stability in the region, and 
they must become part of Iraq's reconciliation and recovery.'' This 
hearing and legislation such as the Casey-Cardin ``Support for 
Vulnerable Iraqis Act'' will play an important role in addressing the 
security and stability challenges presented by Iraqi displacement.
    Refugees International has been working on the plight of displaced 
Iraqis for 3 years. In 2006 and 2007, we called the Iraqi displacement 
crisis ``the fastest growing'' in the world. Although the rates of 
displacement have since slowed, about 20 percent of the Iraqi 
population remains displaced. The Governments of Syria, Jordan, 
Lebanon, and other host countries say that they are sheltering almost 2 
million Iraqi refugees, while the International Organization for 
Migration notes that another 2.6 million are internally displaced in 
Iraq. The latter are known as IDPs.
    Throughout the past 3 years, Refugees International has advocated 
increased assistance to displaced Iraqis, as well as increased 
resettlement of Iraqi refugees in the U.S. and other countries. Our 
efforts have led the United Nations to significantly increase their 
presence and work in the region and the U.S. Government to step up 
efforts to respond to the crisis. In 2008, the U.S. Government provided 
$400 million in assistance to displaced Iraqis. To date, in 2009, the 
U.S. has contributed $150 million and expects to contribute more. As 
for resettlement, the U.S. welcomed more than 13,000 Iraqis in 2008 and 
plans to resettle at least 17,000 in the current fiscal year. More 
needs to be done, but these improvements in the humanitarian response 
are encouraging and demonstrate the willingness of the U.S. Government 
to address some of the humanitarian consequences of the war in Iraq.
    Assistance by the international community and the resettlement of 
vulnerable Iraqis to the U.S. and elsewhere remain critical components 
of a comprehensive response to the Iraqi displacement crisis. However, 
with such a large segment of the population displaced, the solution for 
most displaced Iraqis will be to return home.
    As security in Iraq seems to be improving, it is essential that the 
Government of Iraq, the U.S. and the United Nations (U.N.) work 
together to create conditions suitable for returns.
    Earlier this month, we conducted a mission to Iraq to survey work 
in the main areas of displacement and return in the center of the 
country. We visited several areas of Baghdad, as well as Eskanderia, in 
the former ``Sunni triangle of death,'' Fallujah in the Anbar 
governorate, Karbala and Hilla in the Babel governorate.
    I very much appreciate your invitation to brief you on our 
findings. Unfortunately, a medical emergency has forced us to present 
our testimony in writing. I hope you will make this entire statement 
part of the hearing record and that you will not hesitate to submit 
questions in writing.
     Here are our major findings:

  <bullet> As security in Iraq improves, refugees and internally 
        displaced Iraqis are starting to return home, but the returns 
        are slow and tentative.
  <bullet> While security remains the major factor in a family's 
        decision to return home, other factors play a role--
        infrastructure, particularly water and electricity, employment 
        opportunities and health care. The Government of Iraq (GOI), 
        the U.S. and the United Nations have to do a better job of 
        working together provide the services necessary to support 
        returning Iraqis.
  <bullet> The capacity of the GOI to provide protection and services 
        to returning Iraqis is weak. A vibrant civil society sector, 
        including increasingly competent local nongovernment 
        organizations, is beginning to develop in Iraq, but the 
        government often sees the civil society movement as a threat 
        rather than a potential partner. The U.S. and the U.N. should 
        concentrate on helping to develop a better partnership between 
        the GOI and civil society organizations.
  <bullet> Returns tend to ratify the ethnic cleansing that took place 
        during the worst years of sectarian violence, when many mixed 
        neighborhoods became all Shia or all Sunni. The GOI needs to do 
        a better job of convincing Iraqis that rule of law applies 
        equally to all Iraqis and that the government is nonsectarian.
                          the state of returns
    Since November 2007, the Government of Iraq has been trying to 
encourage the return of displaced Iraqis. In Syria, Jordan, and Egypt 
the GOI has made buses and planes available to help refugees return to 
their country and has provided them with a small sum upon their return 
home. As for the internally displaced, they too can receive assistance 
to vacate the homes they sometimes occupy illegally and to return to 
their homes. Iraq went as far as violating international refugee law by 
asking Syria to close its borders to refugees at the end of 2007, when 
the number of people fleeing was still significant, because of fears 
that the large number of refugees gave a bad image of the security 
situation inside the country.
    In its strategy to encourage returns, the Government of Iraq has 
failed to take political, social, and economic reality into 
consideration and examine the country's capacity to absorb large 
numbers of returns. Instead, it has made the return of displaced Iraqis 
a component, as opposed to a consequence, of its security strategy. 
Large returns, the Government reasoned in 2007, would create the 
impression that security in Iraq was better and would win popular and 
international support for the Government's military and political 
actions.
    Pressure on the displaced to return to their homes continues today. 
Refugees International met with Government officials who all expressed 
the desire to see the ``IDP file'' closed in 2009, as there are ``no 
longer reasons to be displaced'' in Iraq. As a result, IDPs are no 
longer being registered, as the government hurries to make the 
displacement problem disappear. Moreover, Prime Minister al-Maliki's 
Shia Government has little sympathy for the largely Sunni refugees in 
neighboring countries. Syria and Jordan state that almost 2 million 
such refugees are still in their countries, but the Government of Iraq 
states that there are no more than 400,000, and fewer have registered 
with the U.N. High Commissioner for Refugees. According to a U.N. 
diplomat in Baghdad, the Prime Minister sees all refugees as 
``traitors'' or ``Baathists'' who prefer ``getting money without 
working'' rather than helping rebuilding their country.
    Displacement from Iraq has slowed but hasn't stopped yet; the U.N. 
continues to register new arrivals in Syria and Jordan for instance. A 
small percentage of the internally displaced are returning, in part 
because of the cease-fires imposed by Sunni and Shiite militias and the 
security those militias have established in their fiefdoms for members 
of the same sect. Also, many formerly mixed communities are no longer 
mixed and there is essentially no one left to force out. In addition, 
the conditions for displaced families both within Iraq and in 
neighboring countries are extremely difficult and continue to 
deteriorate. Thus, some Iraqis are returning to ``safe'' neighborhoods 
in Baghdad.
    Returns remain a trickle, however, rather than the solution of 
choice for most displaced. According to the IOM, around 50,000 families 
(250,000 persons) have returned, mostly to Baghdad, and mostly from 
within the country. Only 8 percent of these returnees were refugees 
from neighboring countries. As for the rest of the IDPs, a survey by 
IOM shows that 61 percent of those still displaced would eventually 
like to return, but don't feel ready to do it now. The remaining 39 
percent would either like to integrate in their current communities, or 
resettle somewhere else. Obviously, if the post-2006 population 
movements aren't reversed, there will be serious consequences for the 
political future of Iraq, as entire neighborhoods and cities will 
remain homogenous.
    Returns are the most effective way to gauge lasting improvements in 
Iraq, as refugees and IDPs are often the best informed about the 
conditions in their places of origin. The low numbers demonstrate that 
major obstacles and challenges need to be addressed before mass returns 
can take place. According to UNHCR and the U.S. Embassy in Baghdad, 
many who have returned to Iraq from neighboring countries have now 
become internally displaced, unable to go back to their homes. They 
seek shelter in neighborhoods reflecting their religious sect, not 
neighborhoods where they are the minority and might feel threatened. As 
for IDPs, many fear returning because returnees have been killed. Local 
security officials and nongovernmental organizations (NGOs) confirmed 
that there have been incidents of intimidation or murder in many areas, 
and these stories spread quickly throughout the population. Refugees 
International visited the Sunni area of Amriya, where a Shia family was 
killed when it tried to return. We heard of similar incidents happening 
to Sunni families in Shia neighborhoods.
    Besides the fragility of the security situation, there are many 
other obstacles to return. According to assessments conducted by 
international and national aid agencies, refugees and IDPs who have 
returned need shelter, electricity, water, employment, and nonfood 
items. Health care is also a major issue: There are 18,000 health care 
workers in Iraq today, versus 36,000 in 2000. Humanitarian 
organizations have designed programs to target some of these needs. For 
instance, IOM designed a returnee food and nonfood basket, and seeks to 
assist returning families by including them in its community 
assistance, water/sanitation, health and education programs. Similarly, 
UNHCR included assistance to returnees in its 2008 and 2009 programs, 
while both international and local NGOs stand ready to assist in many 
areas of Iraq. As for the GOI, it announced assistance to returnees--
around $800 per family--that is neither sufficient nor efficiently 
distributed.
    Despite these initiatives in assisting returnees, the systems are 
currently not in place to handle a large number of returnees as it is 
the overall infrastructure of the country that needs to be revived. 
Moreover, there is no unified process to deal with returning internally 
displaced persons or refugees. As in the post-conflict Balkans, 
property disputes are a key issue in Iraq, as many returnees are unable 
to go home since their houses are occupied by others. Property disputes 
will linger for many years to come and are likely to spark renewed 
violence. For now, they are being handled by the Iraqi Army on orders 
from the Prime Minister's Cabinet dealing with the eviction of 
``squatters,'' many of them IDPs themselves.
  creating conditions for returns: the role of the government of iraq
    Despite improvements in security, many Iraqis believe large-scale 
violence might resume, as internal struggles for power emerge and are 
no longer limited to the Sunni-Shia divide. In particular, many fear 
the consequences of the U.S.-planned withdrawal, and the effect it will 
have on the different factions. The fear is compounded by the current 
lack of capacity of the Iraqi Government, which is reflected by its 
inability to deal effectively with displacement.
    Inside the Government, sectarian bias remains strong. According to 
senior U.S. officials in Baghdad, ``there isn't one Government in 
Iraq,'' but a regroupment of factions, each pursuing their own agenda. 
Sunni still largely feel disenfranchised and underrepresented, and 
mistrust toward the Shia-dominated Government is largely present at all 
levels of society. The Ministry of Displacement and Migration (MODM) is 
run by Shia Kurds, whose first priority has been the resettlement of 
refugees coming back from Iran. Most advisers to the Prime Minister are 
Shia. IDPs feel it is much easier for displaced Shias than for 
displaced Sunnis to gain assistance. Similarly, many Iraqi NGOs working 
in Sunni areas report having trouble registering with the Government of 
Iraq. One NGO representative told us that when she went to the 
government NGO office to register her organization, she was asked ``why 
she works in these areas,'' meaning Sunni neighborhoods of Baghdad.
    Sectarianism is not the only problem with the Government of Iraq. 
Corruption is rampant, and makes it extremely difficult for the 
Government to effectively deliver assistance and for international and 
national NGOs to operate. The World Food Programme (WFP), which 
delivers food assistance to hundreds of thousands of displaced Iraqis, 
had its cargo seized by Iraqi police who alleged that the food was 
rotten. Refugees International met with many local and international 
groups operating in the city of Hilla, in Babel, who complained that 
the local head of MODM was an incompetent 26-year-old, who was 
appointed because of his links to the Governor and who constantly tried 
to intimidate agencies into distributing assistance to his friends and 
family.
     The improvements in security have not translated into improvements 
in the provision of services. This situation is unlikely to improve in 
the near future, given the financial difficulties that the Government 
of Iraq is currently experiencing. The fall in oil prices has had a 
severe impact on the Iraqi national budget, which went from a planned 
$82 billion to less than $60 billion for 2009, with further cuts 
planned. Moreover, the government has also made cuts in the public 
distribution system of food (PDS) which cost $5.9 billion last year.
    The Government has nevertheless tried to take a few steps to 
address displacement. The creation of returnee assistance centers in 
Baghdad provides legal and financial assistance to returnees. 
Unfortunately, the government interrupted the payment of $800 to 
returnee families in October, and it is unclear when assistance will 
resume. To address property disputes, the Prime Minister's office 
issued two orders for the Iraqi Army (through the Baghdad Operations 
Center, or BOC) to evict squatters when returnees can show documents 
establishing their property rights. Those evicted are entitled to some 
assistance. This system is, however, flawed, as many squatters are IDPs 
themselves who cannot return home. As for homeowners, getting their 
property back does not mean they can return, since they often fear for 
their safety.
    Assistance to returnees, property restitution, and the provision of 
basic services are essential for Iraqis to return home. But many will 
still not return until they feel the root causes of the conflict have 
been addressed. They need to feel accepted by the community and 
provided with security guarantees. Baghdad, and indeed the rest of 
Iraq, resembles a large military base today--with each neighborhood 
sealed off by walls, and populations unable to move freely when they 
choose. Areas are currently protected by the army or by ``awakening 
groups,'' Sunni militias created by the U.S. Army, who were eventually 
supposed to be integrated into the Iraqi Armed Forces and police. Save 
a few exceptions, it hasn't really happened yet, making the situation 
unsustainable. Refugees International and others worry that absent a 
real political reconciliation process and an efficient disarmament, 
demobilization, and reintegration program, these groups will remain as 
armed militias with the same political agenda and strong grievances. 
The possibility for resumed violence is also present along the disputed 
boundaries between the Kurds and the central Iraqi Government. A 
political solution is vital to ensure there won't be large-scale 
confrontations.
    The U.S., the international community, and the U.N. need to provide 
financial and technical assistance to the Government of Iraq to address 
the needs of the displaced, the returnees and the root causes of 
displacement. In addition, political pressure on the Government of Iraq 
to address its own sectarianism and rampant corruption must be 
maintained. A comprehensive, interministerial system is needed to 
establish the rule of law, which is essential for Iraqis to feel safe 
and return to their homes. Finally, the international community must 
work with the Government of Iraq to create jobs. With 30 percent 
unemployment rate, Iraq's economic future is compromised. So is its 
security, as most of the unemployed are young men who are vulnerable to 
recruitment by militias and other armed groups.
                            the way forward
    Humanitarian needs remain a priority in Iraq. The U.N. assistance 
mission to Iraq is currently trying to build the Government of Iraq's 
capacity to respond to humanitarian emergencies and should be supported 
in this work. Many populations in Iraq live in vulnerable conditions, 
unknown to the aid community which, because of security restrictions, 
has been unable to get a comprehensive picture of conditions in the 
country. Refugees International visited groups of displaced Iraqis in 
Baghdad and elsewhere who lived in unsanitary conditions, were not 
registered with the MODM, and had never received any assistance from 
any U.N. agency or NGO. Aid organizations must work together and 
establish better coordination and reporting mechanisms to ensure that 
vulnerable Iraqis stop falling through the cracks.
    NGOs and U.N. agencies have started addressing these problems by 
designing several types of programs: Some targeting basic needs and 
others looking at longer term development, such as job training for 
widows. UNHCR is working with local NGOs to provide protection and 
assistance to the most vulnerable, while UNICEF is launching its IMPACT 
program, addressing the needs of some of the poorest communities in 
Iraq. These organizations and others who are working in Iraq need 
financial and political support. At the end of 2008, the U.N. launched 
an appeal for $547 million to meet the needs of Iraqis both in and 
outside of Iraq. Contributions to this appeal have been insufficient to 
date. Refugees International urges the U.S. to lead by example and fund 
50 percent of the overall appeal. The U.S. plays a special role in the 
region, and this needs to be translated into the prioritizations of 
humanitarian assistance as well.
    Civil society plays an essential role in Iraq. Both international 
and national NGOs have been at the forefront of providing assistance 
since the beginning of the war, often at great risks for their staff. 
Yet there seems to be great mistrust by the Government of Iraq toward 
NGOs, especially Iraqi ones. The Government is currently discussing a 
law that if passed, would enable the State to exert a disproportionate 
level of control on NGOs, on their finances, and even on their 
lifespan. It is true that the Iraqi civil society is young, and that 
many NGOs exist only by name, or as a tool for political parties. Many 
others however, are legitimate and could become important actors if 
they were given the resources and the capacity-building they need. 
Refugees International met with impressive local groups, who provide 
assistance to thousands of vulnerable Iraqis, without any support from 
the Iraqi Government or the international community. The U.S. and other 
donors must also work with the government to achieve a compromise that 
would ensure government oversight without impeding NGOs independence. 
Iraq today is struggling to replace sectarian violence with political 
discourse and reconciliation. It has a long way to go, but more active 
civil society organizations would provide a good mediation channel.
    Even if fully funded though, the U.N. and NGOs will not be able to 
address major problems, such as the establishment of basic services 
throughout the country. This task has been taken up by the government, 
and also by the U.S. provincial reconstruction teams (PRTs) which have 
a much larger budget that any U.N. agency. For example, UNICEF had $30 
million budget in 2008, the PRTs had $862 million at their disposal to 
undertake projects such as the repair of power grids, the rebuilding of 
schools and bridges, or the construction of hospitals. Unfortunately 
the PRTs projects are often implemented without much coordination with 
the central authorities, the U.N., or USAID. There needs to be much 
increased coordination with communities and all actors involved in the 
reconstruction of Iraq to ensure ownership and sustainability. 
Furthermore, as the U.S. troops drawdown, thought has to be given to 
the handing over of PRT projects to the Government of Iraq or the U.N. 
The U.S. has a responsibility to ensure that these projects don't fall 
through, and that whomever they are handed to has the capacity and the 
resources to maintain and complete them.
    As efforts continue to stabilize and rebuild Iraq, special 
attention needs to be given to the most vulnerable, and durable 
solutions need to be found. The stateless Palestinians of Iraq remain 
one of the most vulnerable groups, the subjects of discrimination and 
attacks by many factions. The hundreds who sought shelter in the camps 
of Al-Tanf and Al-Waleed at the Syrian border with Iraq must be 
resettled immediately and the criteria applied should be the same as 
for Iraqis. According to the U.N., there are 10-12,000 left in Iraq. 
For this population, resettlement to a third country is likely to be 
the only durable solution.
    The U.S. and the international community must also turn their 
attention to Iraqis who will not be able to return home, whether they 
are refugees or internally displaced. They may be too vulnerable to 
return, or have reasons to fear for their safety. Either way, there are 
currently no plans to address their needs and plan for their future. 
The U.S. must engage Syria, Jordan, and other host countries on finding 
durable solutions for these particularly vulnerable groups. As for the 
39 percent of internally displaced Iraqis who don't plan to return 
home, they will need assistance to either integrate in their new 
communities or resettle elsewhere. The political implications for the 
future of Iraq must be carefully considered, while respecting the will 
of the displaced.
    We can avoid repeating past mistakes. The U.S. must consider the 
humanitarian implications of its engagement in Iraq, and ensure that 
measures are taken to mitigate the effects the conflict continues to 
have on civilians. Working with the Government of Iraq and the U.N., 
the U.S. must stand ready to assist vulnerable Iraqis, including the 
displaced and the returnees. This is not only a humanitarian 
imperative, but a security one as well.

                                  <all>

</pre></body></html>
